<html>
<title> - FEDERAL SUPPORT FOR HOMELAND SECURITY INFORMATION SHARING: ROLE OF THE INFORMATION SHARING PROGRAM MANAGER</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                      FEDERAL SUPPORT FOR HOMELAND 
 SECURITY INFORMATION SHARING: ROLE OF THE INFORMATION SHARING PROGRAM 
                                MANAGER 
=======================================================================
                                HEARING

                               before the

                     SUBCOMMITTEE ON INTELLIGENCE,
           INFORMATION SHARING AND TERRORISM RISK ASSESSMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 8, 2005

                               __________

                           Serial No. 109-55

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                              -------

                     U.S. GOVERNMENT PRINTING OFFICE

35-718 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001
      


















                     COMMITTEE ON HOMELAND SECURITY



                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael McCaul, Texas                James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                 ______

 SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING, AND TERRORISM RISK 
                               ASSESSMENT



                   Rob Simmons, Connecticut, Chairman

Curt Weldon, Pennsylvania            Zoe Lofgren, California
Mark E. Souder, Indiana              Loretta Sanchez, California
Daniel E. Lungren, California        Jane Harman, California
Jim Gibbons, Nevada                  Nita M. Lowey, New York
Stevan Pearce, New Mexico            Sheila Jackson-Lee, Texas
Bobby Jindal, Louisiana              James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida           Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex          (Ex Officio)
Officio)

                                  (II)






















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Rob Simmons, a Representative in Congress From the 
  State of Nevada, and Chairman, Subcommittee on Intelligence, 
  Information Sharing, and Terrorism Risk Assessment.............     1
The Honorable Zoe Lofgren, a Representative in Congress From the 
  State California, and Ranking Member, Subcommittee on 
  Intelligence, Information Sharing, and Terrorism Risk 
  Assessment:
  Oral Statement.................................................     2
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Opening Statement.....................................     4
The Honorable Charlie Dent, a Representative in Congress From the 
  State of Pennsylvania..........................................    12
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island.................................    17
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas........................................    48
The Honorable Nita M. Lowey, a Representative in Congress From 
  the State of New York..........................................    14
The Honorable Curt Weldon, a Representative in Congress From the 
  State of Pennsylvania..........................................    40

                               Witnesses

Mr. William Crowell, Markle Foundation Task Force on National 
  Security in the Information Age:
  Oral Statement.................................................    27
  Prepared Statement.............................................    36
The Honorable Lee Hamilton, Vice Chairman, 9/11 Public Discourse 
  Project:
  Oral Statement.................................................    21
  Prepared Statement.............................................    23
Mr. John Russack, Information Sharing Program Manager, Office of 
  the Director of National Intelligence:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6


                      FEDERAL SUPPORT FOR HOMELAND 
                   SECURITY: ROLE OF THE INFORMATION 
                       SHARING PROGRAM MANAGER 

                              ----------                              


                       Tuesday, November 8, 2005

             U.S. House of Representatives,
                    Committee on Homeland Security,
                  Subcommittee on Intelligence, Information
                    Sharing, and Terrorism Risk Assessment,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:04 p.m., in 
Room 311, Cannon House Office Building, Hon. Rob Simmons 
[chairman of the subcommittee] presiding.
    Present: Representatives Simmons, Weldon, Dent, Lofgren, 
Lowey, Jackson-Lee, and Langevin.
    Mr. Simmons. [Presiding.] The Committee on Homeland 
Security's Subcommittee on Intelligence, Information Sharing 
and Terrorism Risk Assessment will come to order.
    The subcommittee is meeting today to hear testimony on the 
state of homeland security information sharing to review the 
progress of the federal government's information sharing 
efforts and to explore the relationship between the Information 
Sharing Program Manager and the Department of Homeland 
Security's Chief Intelligence Officer.
    We will hear from two panels today. Our first witness will 
be Mr. John Russack, Information Sharing Program Manager in the 
Office of the Director of National Intelligence.
    Our second panel of witnesses will be the Honorable Lee 
Hamilton, vice chairman of the 9/11 Public Discourse Project, 
and Mr. William Crowell, from the Markle Foundation's Task 
Force on National Security in the Information age. And I thank 
them all for being here today.
    Prior to being named Information Sharing Program Manager, 
our first witness, John Russack, was previously the Energy 
Department's intelligence director and served as deputy chief 
of external operations and cover division for 
counterintelligence. He was the deputy assistant director of 
central intelligence for collection, was the military deputy 
director of the DCI's Nonproliferation Center and was deputy to 
the associate director of central intelligence for military 
support. In other words, he is a seasoned intelligence 
professional who brings years of experience to the job.
    Preventing future terrorist attacks must be the primary 
goal of our homeland security efforts, and the ability to share 
relevant terrorist-related information is key to prevention. 
The Information Sharing Program Manager is the designated 
individual responsible for information sharing across the 
federal government and was given government-wide authority to 
ensure that all government agencies at the federal, state, 
local, tribal levels, as well as the private sector, share 
information about terrorists and terrorism.
    The Program Manager, in consultation wit the Information 
Sharing Council, is responsible for developing, monitoring and 
managing the information sharing environment, or ISE, which 
will provide the means for sharing terrorism information among 
all appropriate federal, state, local and tribal entities, as 
well as the private sector.
    Establishing an information sharing environment is a 
difficult and complex undertaking and will require a concerted 
effort at all levels of government.
    We look forward to hearing your views on the current status 
of your efforts and your thoughts about the road ahead. I am 
especially interested in how your relationship with the 
Department of Homeland Security's Chief Intelligence Officer is 
progressing and whether or not you feel that you have the 
resources that you need and the authority that you need to get 
the job done.
    The chair now recognizes the ranking minority member, the 
gentlelady of California, Ms. Lofgren, for any comments she 
might make.
    Ms. Lofgren. Thank you, Mr. Chairman, and I will put my 
full statement into the record. But I do want to celebrate the 
fact that we are having this hearing. Probably, as I think 
about it, we should have had this hearing maybe before the last 
hearing we had since we need to understand the ISE, which is 
central to any effective government-wide information sharing 
effort.
    As the Markle Foundation has noted, the ISE should not be 
limited to promoting communications between the various 
agencies that comprise the intelligence community. We have all 
the shared intelligence in the world. If we don't get it out to 
the state, local and tribal law enforcements, we are not going 
to achieve our goal. And I am pleased that I believe that Mr. 
Russack certainly understands that, and it is our job here to 
try and assist him in getting that accomplished.
    I would note that we are way behind in what we need to do. 
I am very concerned that Mr. Russack's office is not yet 
properly funded or properly staffed. I think if we are going to 
ask him to lead the tough job that we have given to him, that 
we need to make sure he has the budgetary support to accomplish 
the task.
    I also want to note that four years after 9/11 and more 
than a year after the issuance of the 9/11 Commission report, 
we are aware that federal departments and agencies are still 
using arguments based on interpretation of their authority 
prior to the Intelligence Reform Act to protect their turf. We 
need to work with our administrative leadership to correct this 
situation. I think this hearing is a part of that effort but 
certainly not all that will be asked of us.
    And I yield back and will submit the rest of my statement 
for the record.

             Prepared Opening Statement of Hon. Zoe Lofgren

    Good afternoon. I, too, am very pleased that this Subcommittee is 
turning its attention to the critical issue of government-wide 
information sharing. I would like to extend a warm welcome to Mr. 
Russack, who I had the opportunity to meet last week, as well as Bill 
Crowell of the Markle Foundation and Lee Hamilton, former Vice Chairman 
of the 9/11 Commission.
    This hearing builds upon our July information sharing hearing when 
we explored how well federal agencies were communicating with state, 
local, and tribal law enforcement authorities and the private sector.
    This hearing, by contrast, will focus on how well federal agencies 
are communicating with each other.
    For several reasons, this hearing probably should have happened 
first.
    The Information Sharing Environment (ISE)--initiated as part of 
last year's Intelligence Reform Act--is central to any effective 
government-wide information sharing effort. Accordingly, the ISE is an 
important starting point--in fact, THE starting point--for any 
coordinated information sharing effort involving the federal 
government.
    As the Markle Foundation has noted, however, the ISE should not be 
limited to promoting communications between the various agencies that 
comprise the Intelligence Community. On the contrary, all the shared 
intelligence in the world is not worth a thing if it is not 
disseminated to those who can actually use it--namely, the men and 
women of state, local, and tribal law enforcement who are most likely 
to encounter terrorists in the communities they protect and serve.
    An ISE that incorporates not only the federal Intelligence 
Community but also our hometown law enforcement authorities holds great 
promise.
    In many respects, this is old news. What we need now is action.
    I am saddened to report that while the establishment of the ISE is 
a step in the right direction, its implementation continues to be 
plagued by inaction and a lack of cooperation.
    How can we expect to have an effective, fully functional ISE if we 
haven't properly funded or staffed Mr. Russack's office? Indeed, how 
can Mr. Russack do his job if he doesn't have a budget?
    Mr. Russack testified this summer that he had been staffed with 
only one full-time employee and two contractors to assist him with his 
work. Indeed, the Markle Foundation recently reported that Mr. 
Russack's office still needs more full time employee positions and 
still has key leadership positions open.
    While I know from Mr. Russack that he is diligently attempting to 
fill those spaces, a dedicated funding stream for his office will go a 
long way to attracting the best and brightest minds to his effort.
    At the same time, if we don't foster a greater sense of urgency in 
terms of implementing and operationalizing the ISE, how can we 
effectively thwart terrorist plans that are being developed by our 
enemies?
    I note that it was only two weeks ago that the President actually 
issued Executive Order 13388 establishing the Information Sharing 
Council--an entity that is supposed to bring all intelligence agencies 
to the table to work out their differences. The Council is getting 
started 11 months after Congress provided for its creation and six 
months after Mr. Russack was appointed.
    I question how much they can realistically accomplish together 
during the 18 months remaining in their terms.
    Moreover, if the various agencies that comprise the Intelligence 
Community can't or won't agree on how to share information with each 
other as part of the ISE, how can we expect them to communicate 
homeland-security information with law enforcement officers in the 
field? Likewise, if the Intelligence Community resists the efforts of 
the Program Manager to create an ISE that requires compliance with a 
common set of rules and regulations for information sharing, how can we 
assure those officers that they will receive a consistent, coherent 
message from their federal partners?
    The Markle Foundation recently reported that four years after 9/11 
and more than a year after the issuance of the 9/11 Commission's 
report, federal departments and agencies are still using arguments from 
interpretations of their authority prior to the Intelligence Reform Act 
to protect their turf.
    Finally, even if Mr. Russack succeeds in developing rules and 
procedures designed to ensure effective information sharing, what good 
will they be if--at the end of the day--they can't be enforced?
    Although the Director of National Intelligence has assumed 
administrative responsibility for the Program Manager, he must also 
assume responsibility for the success of Mr. Russack's office. That 
success will manifest itself only when we have a clear and consistent 
information sharing policies and procedures that apply to all 
intelligence consumers as well as clear and decisive consequences--
financial or otherwise--for noncompliance.
    These are all critical questions that I hope the witnesses will 
address and the Members present here today will explore. I look forward 
to all of the testimony today.

    Mr. Simmons. I thank the ranking member for her statement. 
I state, for the record, that all members of the subcommittee 
or the members of the committee who attend can insert opening 
statements for the record.

              Prepared Opening of Hon. Bennie G. Thompson

    I am very pleased that this Subcommittee is turning its attention 
to the issue of government-wide information sharing, and more 
specifically, the progress that is being made--or not being made--with 
the development of the Information Sharing Environment (ISE).
    Congress initiated the ISE last year as part of the Intelligence 
Reform and Terrorism Prevention Act.
    The ISE was intended it to be a decentralized, distributed, and 
coordinated system for sharing terrorism information among intelligence 
and law enforcement agencies at all levels of government.
    In its hoped-for state, the ISE will be a combination of policies, 
procedures, and technologies linking people, systems, databases, and 
information across government and the private sector in order combat 
terrorism more effectively.
    Congress intended the ISE to achieve this function in a way that 
not only promotes national security but also respects privacy and civil 
liberties.
    Things are moving on all these fronts--but slowly.
    To get to where we need to be, we must have everybody on the same 
page.
    Put simply, our intelligence agencies, law enforcement entities, 
and the private sector must operate under a common set of guidelines 
and policies for acquiring, accessing, sharing, and using information.
    The Intelligence Community, moreover, must be answerable to a 
single authority to coordinate this effort.
    That is where our first witness--Mr. John Russack, the Program 
Manager of the Information Sharing Environment--comes in.
    As former 9/11 Co-Chairman Lee Hamilton recently stated, ``The 
place where it all comes together is in Mr. Russack's position. . . . 
He's the fellow that has to see that we get all this information 
shared. And if you don't . . . you are not going to have the most 
effective means of fighting terrorism.''
    Several things are for certain. Mr. Russack won't be effective if 
he doesn't have the resources he needs;
    He won't be effective if he doesn't have the cooperation from the 
Intelligence Community he needs;
    And he won't be effective if he doesn't have ``buy in'' from all 
participants.
    The Markle Foundation recently warned the President that ``risk 
aversion and bureaucratic resistance to change continue to hamper the 
carrying out of the Information Sharing Environment and the policies 
that support it.''
    I therefore look forward to Mr. Russack's testimony and that of our 
second panel witnesses--including Mr. Hamilton and Mr. Bill Crowell of 
the Markle Foundation Task Force on National Security in the 
Information Age.
    I am certain that Mr. Russack, Mr. Hamilton, and Mr. Crowell all 
have unique perspectives on the Markle Foundation's concerns as well as 
other challenges in this critical area.
    Thank you all for joining us today.

    Mr. Simmons. I now would like to welcome Mr. Russack to the 
subcommittee to remind him that his entire statement will be 
introduced into the record and that if he is able to limit his 
oral testimony to around 5 minutes, that will leave an 
opportunity for questions.
    Mr. Russack, thank you for being here.

STATEMENT OF JOHN RUSSACK, INFORMATION SHARING PROGRAM MANAGER, 
        OFFICE OF THE DIRECTOR OF NATIONAL INTELLIGENCE

    Mr. Russack. Thank you, Mr. Chairman. Thank you, Ms. 
Lofgren. It is a pleasure to be here.
    I would, first of all, like to state that I agree with 
everything the chairman and the ranking minority member have 
said about the importance of information sharing to national 
security. I would also like to say that I care. When I was 
asked if I would consider doing this job, I said, ``Yes,'' and 
the reason I said, ``Yes,'' is because I believe that 
information sharing in our nation--and, again, I emphasize the 
fact that this is a national issue, it is not a federal issue, 
it is not a state and local issue, it is everybody's issue--
information sharing in our nation is seminally the most 
important thing we can do to ensure our national security.
    And what I intend to do is execute the tasks that the 
Congress has laid out for me in the Intelligence Reform and 
Terrorism Prevention Act. We have already turned in a 
deliverable. That was due to the Congress on the 15th of June. 
In that, I talked about the impediments to information sharing, 
and I would like to point out at the onset that technology is 
not an impediment.
    Oftentimes, people tend to talk about information sharing 
in terms of technology or chief information officers, and many 
would draw the conclusion that these are technological issues, 
not that aren't technological issues because there are, but 
technology is an enabler. It is not an impediment.
    Most of the time, there are technical solutions to solve 
many problems. Once we have identified problems in policy, law, 
culture in the business model and once we define the business 
rules, technologically, we can build a system that will in fact 
enable us to share information.
    So I care deeply about this issue. The intention of myself 
and my staff is to in fact make the existing information 
sharing environment better. Depending upon where you sit or 
where you stand and what you do, the scorecard for today's 
information sharing system would be, if we took a positive 
side, flawed, doesn't work perfectly. And if we took the 
negative side, some would argue that it doesn't work at all.
    I think post-9/11, across the federal government, we in 
fact are sharing information. It is not a perfect sharing. We 
need to do much better. We need to make sharing much more 
robust, and I think we need to redefine the business rules. I 
think an awful lot of the problems have to do with roles, 
missions, responsibilities and authorities in terrorism. If I 
look at the state, local, tribal and private sector, I think 
that is where we really need to do a much better job.
    And when I talk to people at the state, local, tribal and 
private sector, people representing those sectors, most of them 
are unhappy with the quality of information sharing. And I 
think if we are going to protect America, we need to do better 
at the federal level, and, clearly, we must do a whole lot 
better when we deal with state, local, tribal and the private 
sector.
    Protection of sources and methods is an issue; however, 
clearly, we can share information in a better way, in a much 
more effective way, and we can add context and perspective to 
the information we give to state, local, tribal and the private 
sector.
    We also need to do business specifically for state, local, 
tribal and the private sector and across our nation. We need to 
do more business at the unclassified level.
    Today, in the 21st century, there are many, many sources of 
information beyond intelligence. Most large companies and 
businesses that I know of have their own intelligence 
organizations. Where do they get their information--Open 
source.
    There is an awful lot of information that is out there at 
the open source level. If we take that information and combine 
the information derived from national, technical means, the 
classified stuff, we ought to be able to do a good job, a great 
job, a much more adequate job of protecting America.
    Thank you.
    [The statement of Mr. Russack follows:]

                 Prepared Statement of John A. Russack

INTRODUCTION
    Chairman Simmons, Ranking Member Lofgren, and distinguished members 
of the subcommittee, I consider it an honor to be here today to update 
you on my efforts to implement the recommendations that Congress 
prescribed in section 1016 of the Intelligence Reform and Terrorism 
Prevention Act (IRTPA) of 2004. We need not look far to the tragic 
events of September 11, 2001, to understand that we have significant 
work remaining to fully implement an information-sharing environment 
that more effectively supports our national counterterrorism mission. I 
believe there is not an issue more seminal to the security of our 
nation than information sharing. I accepted this responsibility because 
I am committed to doing something about it. This task is too large and 
much too important for me to do it alone, which is why Congress must 
remain fully engaged in this effort and provide its leadership, 
support, and necessary guidance to transform our current capabilities 
into a better, more effective Information Sharing Environment (ISE).
    In August of 2004, the President issued Executive Order 13356 to 
ensure that terrorism information is shared broadly among federal 
agencies; state, local, and tribal governments; and the private sector. 
Then in response to the IRTP A, on April 15, 2005, the President 
designatedme as the Program Manger (PM) for the Information Sharing 
Environment, and on June 2nd, the President directed that the PM be 
part of the Office of the Director of National Intelligence (ODNI).
    On June 15th, I submitted a preliminary report to the President and 
Congress-the first deliverable mandated by IRTP A. This report 
identified five broad issues affecting information sharing that will 
largely define the agenda for my office over the next two years. On 
October 25th, the President issued EO 13388 establishing the 
Information Sharing Council (ISC), and I now have an approved charter 
authorizing the ISC to assist and advise the President and myself in 
carrying out our duties as described in section 1016 of IRTPA. On 
October 27th, Ambassador Negroponte sent a letter to Department 
Secretaries and Agency Directors requesting representatives to the ISC. 
While the institutional foundations are in place to allow us to make 
significant progress in the way we share terrorism information, a 
number of hurdles that exist that will require hard work and leadership 
to surmount. Weare committed to identifying and removing all 
impediments that prevent us from providing the best possible 
information to decision makers, at whatever level.
    In fact, significant efforts have been made to meet Congress' 
intent in making information sharing a priority. In consultation with 
the ISC, and state, local, and private sector representatives, I will 
formulate policies and guidelines to enable broader sharing of 
terrorist information, develop an ISE concept of operations and 
architecture, and prepare for the President an implementation plan for 
the Information Sharing Environment. Once the plan is adopted, my 
office will manage, support, monitor, and assess ISE implementation by 
Federal departments and agencies, and regularly report my findings to 
Congress.
    I have organized my office around three major priorities: policy, 
technology, and business process, and I have recruited and staffed 
senior positions for each of these key areas. My office is currently 
staffed with 11 Federal employees, with eight more in the hiring 
process; we are further augmented with six on site contractors. The 
quality of personnel now onboard is outstanding, and is representative 
of all of the agencies and departments of the Federal govemment--not 
just the Intelligence Community (IC). I am on track to obtain 
additional Federal Government employees and achieve our established 
personnel goal of twenty-five.
    The following are representative accomplishments associated with 
the stand-up of my office:
        <bullet> I distributed a Request For Information (RFI) to 
        industry on August 18, 2005, to develop an Electronic Directory 
        Service (EDS) or the functional equivalent required by section 
        1016(b) of the IRTPA. Forty-eight responses were received from 
        potential developers, and are now being analyzed. These inputs 
        may provide the basis for a Request for Proposal (RFP).
        <bullet> The Institute for Defense Analyses (IDA) has been 
        under contract to my office since July 2005 to perform a 
        comprehensive review of the existing ISE. The resulting 
        December 2005 report will serve as a key point of departure for 
        implementing the ISE.
        <bullet> In October, I established three ISE steering groups: 
        (1) Information Access, Search, and Exploitation; (2) ISE 
        Governance and Collaboration; and (3) Security and Privacy. The 
        ISC and I will look to these groups to be the primary focal 
        points for integrating all work in their respective issue 
        areas. The steering groups will leverage and track ongoing work 
        to avoid duplication, integrate results, and report progress to 
        myself and the ISC. In addition, they will identify any issues 
        not being addressed, assign priorities, and propose options for 
        resolving them.
        <bullet> My office is engaged in identifying a number of 
        promising information sharing technology pilot programs, 
        including two particularly promising projects--one with the New 
        York Federal Bureau of Investigation (FBI) Field Office on a 
        Sensitive But Unclassified (SBU) technology demonstration; the 
        other a project with our Department of Energy (DOE) national 
        laboratories, to leverage both analytic and technical expertise 
        to counter the potential for nuclear terrorism.

ROLE OF THE PROGRAM MANAGER
    The ISE will be a national information-sharing environment enabling 
frictionless terrorism information access. It is a combination of 
policies, procedures, and technologies linking the resources (people, 
systems, databases, and information) of Federal, state, local, and 
tribal entities and the private sector to facilitate information 
sharing, access, and collaboration among users to combat terrorism more 
effectively.
    The IRTP A required the President to designate a program manager 
(PM) ``responsible for information sharing across the Federal 
Government,'' with government-wide authority. Section 1016(f) outlines 
the duties and responsibilities that were assigned to me as the Program 
Manager:
        <bullet> Plan for and oversee the implementation of, and 
        manage, the Information Sharing Environment;
        <bullet> Assist in the development of policies, procedures, 
        guidelines, rules and standards as appropriate to foster the 
        development and proper operation of the Information Sharing 
        Environment; and
        <bullet> Assist, monitor, and assess the implementation of the 
        Information Sharing Environment by Federal departments and 
        agencies to ensure adequate progress, technological consistency 
        and policy compliance; and regularly report the findings to 
        Congress.
    Since September 11, 2001, significant progress has been made to 
improve the Nation's ability to access, integrate, and share terrorism-
related information. Legislative changes and executive orders have 
reduced some of the barriers to sharing. New organizations such as the 
National Counterterrorism Center (NCTC), the Department of Homeland 
Security (DHS), the Terrorist Screening Center (TSC), and state and 
local intelligence fusion centers have bolstered our national effort to 
collect, analyze, and disseminate information. My office will build on 
these collective capabilities. The ISE that exists today must be more 
robust and interconnected to ensure our national security. Policies, 
rules, architectures and systems, which support specific individual 
missions, must be adjusted to enhance frictionless, rapid information 
access. One of the functions of my office will be to coordinate these 
individual efforts so that they are uniformly directed towards a single 
collective effort to share information throughout the mission space.
    The ISE of the future must transform, integrate and connect 
existing elements into a cohesive framework by providing common 
polices, guidelines, systems, and architecture. Leveraging existing 
initiatives will be critical to getting this task done in an expedited 
manner. The challenge herein is that terrorism information is not 
limited to intelligence. The counterterrorism mission will require the 
integration of information from homeland security, private sector, law 
enforcement, financial, and bio-surveillance, to name a few. Each of 
these classes of information possesses its own unique legal 
requirements, business rules, technical architectures, standards, and 
capabilities. Therefore, coordinating this effort will be a critical 
function of my office.
    Creating an ISE that effectively facilitates the flow of 
information across agency, jurisdictional, and domain boundaries must 
be enabled by technology. It is key to note that technology is not the 
solution but an enabler, and technologies currently exist to meet this 
challenge. Rewriting the business rules for this new ISE will require 
that we address all the impediments to sharing--policy, culture, and 
roles, missions and responsibilities. Critical to this effort is 
leadership. One of my roles is that of a catalyst in implementing the 
ISE, creating the conditions necessary to optimize information sharing. 
Ultimately Federal agencies and all of our non-federal partners will 
each have to share the responsibility and provide the necessary 
leadership to make the ISE we need. The success of this effort will be 
directly related to the commitment that each agency makes to change its 
culture from the need-to-protect to the need-to-share.

         STATE, LOCAL. TRIBAL GOVERNMENT AND THE PRIVATE SECTOR

    We must better support the key new partners in our counterterrorism 
efforts: the state, local, and tribal governments, and private sector. 
I intend to fully support the efforts currently underway at the 
Department of Homeland Security, the Department of Justice (DOJ), and 
the Department of Defense (DaD) to provide actionable information to 
their customers.
    The current federal system (processes, protocols and technology 
capabilities) that supports the sharing of terrorism-related 
information and intelligence between Federal, state, local, and tribal 
governments, and the private sector is not cohesive and has led to the 
development of an ad-hoc patchwork of informal and formal networks to 
facilitate the sharing of information among local partners. These 
``networks'' include a variety of organizational structures and 
processes for gathering, analyzing, and sharing terrorism-related 
information and intelligence. Most states have begun to establish 
statewide intelligence fusion centers to serve as central hubs to 
facilitate statewide efforts to gather and analyze terrorism-related 
information, blend it together, and then produce and disseminate 
intelligence products used to support homeland security related 
prevention, response and recovery activities (operational and 
planning).
    I recognize that statewide and major urban area information fusion 
centers have the potential to be a critical part of the ISE. Thirty 
states have information ``fusion'' centers and 11 more are being 
developed. Identifying best practices with regard to establishing a 
fusion capacity within the state and local information-sharing 
environment will significantly contribute to the ISE implementation. I 
further support the efforts by the DHS, DOJ, and other relevant Federal 
entities to coordinate their domestic information and intelligence 
efforts with these fusion centers.
    Effectively engaging state, local, tribal, and private sector 
authorities in the ISE development process will require overcoming 
significant frustration by local entities over the perceived ``lack of 
progress'' in establishing a national terrorism information sharing 
system. I know that Members regularly hear from their local law 
enforcement entities, first responder groups, and the private sector on 
the continuing lack of coordination among federal entities. We must 
work together more seamlessly at the Federal level in order to better 
leverage the capabilities that the state, local, and tribal entities 
bring to the counterterrorism effort.

    Our ISE planning efforts will take into account that:
        <bullet> Counterterrorism-related prevention, response and 
        recovery efforts carried out at the state, local, and tribal 
        levels must be integrated into their ``all-crimes, all-
        hazards'' approach to homeland security;
        <bullet> In addition to supporting investigations, terrorism-
        related intelligence is used at the state, local, and tribal 
        levels to support a broad array of activities, including: 
        completion of jurisdictional risk assessments; allocation of 
        fiscal resources; response and recovery planning efforts; and 
        critical infrastructure protection; and
        <bullet> State, local, tribal, and private sector authorities 
        need more unclassified information and intelligence, and the 
        traditional Federal emphasis on producing and disseminating 
        classified information impedes the effective use of that 
        information to support multi-disciplinary prevention, response, 
        and recovery efforts.
    Another important initiative that I will continue to expand is the 
use of information access pilot programs at the state and local levels. 
We currently have two pilot programs that involve the FBI and DOE. The 
FBI New York Office's Special Operations Division currently utilizes 
handheld wireless devices for field operations. In addition to emails 
and alerts, the devices can be used to access various databases. The 
objective of the FBI pilot project is to facilitate enhanced 
communications among counterterrorism personnel and provide rapid 
wireless access to SBU data sources. The DOE is sponsoring a pilot 
project that will apply technical analytic expertise to intelligence 
pertaining to nuclear terrorism. The project has established a core 
group of nuclear expert analysts across five DOE national laboratories, 
focused on providing both long-term, strategic analysis of the supply-
side of nuclear terrorism and better short-term tactical intelligence, 
with an additional objective of improving potential collection 
opportunities. Central to the success of this effort is the sharing of 
all relevant sensitive reporting with these national laboratories. 
Pilot programs provide valuable end-user input to the technical 
development of the ISE, and significant buy-in that will be crucial for 
cultural change in the information-sharing environment.

ELECTRONIC DIRECTORY SERVICES
    I am required to provide an electronic directory service (EDS) or a 
functional equivalent that meets the requirements and objectives of the 
IRTP A, based on a community-wide, enterprise architecture, to focus on 
a broad range of threats. The EDS must accommodate increasing numbers 
of sources, and be implemented utilizing existing technologies and 
ongoing EDS and collaboration efforts. The EDS will provide a set of 
capabilities to inform ISE users of the resources available for 
collaboration, including professionals from across the IC, Federal, 
state and local governments, as well as private industry, academia and 
allied countries. Capabilities, such as people and organizational 
information, will be made available on a realtime basis to all ISE 
users, employing traditional search and drill-down functionality.
    The EDS implementation will be achieved through a three-phased 
approach. The first phase will start small by leveraging existing IC 
counterterrorism directory services such as Intelligence Community Full 
Service Directory (IC FSD) and the National Counterterrorism Center 
Online (NOL) directory.
    The second phase will include people/organization listings from 
Federal organizations such as use of capabilities of the Department of 
Justice--Global Justice Information Sharing Initiative, Regional Data 
Exchange (R-DEx), Law Enforcement Online (LEO), the Regional 
Information Sharing System (RISS) and the Department of Homeland 
Security--Transportation Security Administration Operating Platform.
    The third phase will include state/local governments, private 
sector, academia and Allied countries. The use of capabilities such as 
the Department of Homeland Security Regional Information Exchange 
System (HSIN), state fusion centers and New York State Directory 
Service (NYSDS) would provide immediate initial capability.

SUMMARY
    I believe there is no higher priority for our national security 
than the issue of information sharing. Congress has provided us the 
mandate through legislation; the President has provided us the 
leadership and further guidelines; now we must finalize the work of 
transforming our information-sharing environment into one that works 
more effectively for all. Thousands of men and women work tirelessly to 
protect this nation from terrorist threats. It is important for us to 
provide them and other decision makers with the best possible 
information to do their job to protect the people and interests of the 
United States against another terrorist attack.
    It is important to emphasize that my function in all of this is to 
serve as an enabler for better access and collaboration. Each 
department and agency with a counterterrorism mission will retain their 
current roles. Our collective task is to lead the effort to better 
clarify these roles, missions, and responsibilities, and implement an 
ISE that better supports their efforts.
    In closing, I would like to leave you with some key priorities in 
establishing the Information Sharing Environment:
        <bullet> It is absolutely essential that information flow in 
        two directions. The ``environment'' we create needs to provide 
        better access to Federal terrorism information at the state and 
        local levels--however, and of equal importance, it must also 
        provide mechanisms to allow valuable information gathered by 
        state and local officials to be used by Federal agencies.
        <bullet> The Intelligence Community no longer serves as the 
        single source for information, particularly where terrorism 
        information is involved. Customers can and do get their 
        information elsewhere. Consumers of terrorism information 
        demand expertise; are substance oriented; and require each of 
        us engaged in countering terrorism to operate in a ``fast 
        forward, value added mode.''
        <bullet> While it's true that some in the Intelligence 
        Community have historically regarded protection of intelligence 
        sources and methods as more important than sharing the 
        information, it's an impediment that must be overcome. 
        Protection and sharing of information are not mutually 
        exclusive. We can and will share the information we collect and 
        analyze, while protecting our most sensitive sources and 
        methods.
        <bullet> I recognize that there are potentially serious issues 
        affecting privacy, civil liberties and the equities of state 
        and local governments that will need to be addressed before we 
        achieve the two-way flow of information. Close collaboration 
        between officials at all levels will be essential to develop 
        the policies and processes we need. Although some terrorism 
        information must always be classified, our goal has to be that 
        we provide as much as possible at the unclassified level.
        <bullet> One of my responsibilities is to identify any 
        impediments to effecti ve information sharing and to remove 
        them. Consumers of terrorism information must receive all the 
        information they need from us, quickly and free of unnecessary 
        restrictions.
    My office, under the leadership of the DNI, is committed to 
creating an effective ISE that extends beyond the Intelligence 
Community. This task will include the development of nationwide 
policies that will enable individual Federal agencies and key partners 
to begin to adopt practices that reflect effective information sharing 
capabilities and procedures. Our state, local, and tribal governments 
and private sector entities must be full partners in this effort
    Mr. Chairman, I appreciate the opportunity to provide this 
subcommittee an update on the activities of the Program Manager's 
Office and look forward to your questions. Thank you.

    Mr. Simmons. I thank you, Mr. Russack, for your testimony.
    I would like to make note of your preliminary report on the 
creation of the information sharing environment. This was your 
first deliverable, I believe, and you list several issues in 
here. One is the issue of current authorities and policies, 
governing rules and responsibilities are in some cases 
ambiguous and conflicting.
    But the second one intrigues me the most: Organizations do 
not fully trust one another when sharing information.
    You served in the intelligence community, you have been 
part of what I call the secrecy system. I spent 10 years in the 
CIA and over 30 years in military intelligence. The idea of 
intelligence information sharing was culturally anathema. You 
might share information with your colleagues, you might run 
information up and down your stovepipe, but you certainly were 
very reluctant to share it across the community for several 
reasons. One, your source might be jeopardized; two, somebody 
else might take some credit for what you were doing. And so 
there is an issue of trust.
    There is an issue of whether or not a series of little 
intelligence bureaucracies can see clearly the national 
security advantages to sharing with others in a real-time and 
virtual environment. And this cultural change is very, very 
difficult to accomplish.
    How can you, as a single individual, somehow persuade this 
large collection of entities who up until recent years have 
pretty much operated on their own and without sharing, how can 
you break through this traditional culture and establish as a 
priority and a need and as a goal for everybody that we need to 
share this information?
    Mr. Russack. Mr. Chairman, let me say, first of all, that 
you said me, as a single individual. Clearly, me, as a single 
individual, I am not going to be able to affect the cultural 
change you describe by myself. So I am going to need the help 
of the president, the Congress, the executive branch, the 
entire legislative branch and the heads of the various 
departments, agencies in our federal government.
    And let me take that even into a larger group. All of us 
that comprise our nation need to demand that people share. We 
need to incentivize sharing. We need to reward sharing as 
opposed to reward protecting. It is obviously going to be 
iterative. We are not going to make fundamental changes in 
bureaucracy and culture overnight. We have to inculcate this, I 
think, in our training programs across the federal government 
and the nation, and I think only then will we be able to 
overcome concerns about trust.
    I would also say that leaks do not help. I mean, 
oftentimes, or many times, the federal government does share 
information, and there have been several instances of sharing 
and requesting that that information be kept confidential or be 
kept at a sensitive level, and we find that information above 
the fold or below the fold on the front page of newspapers and 
transmitted, broadcast across our country by satellite dishes 
and the broadcast media.
    So trust, I think, is key. I think you pointed that out 
very, very accurately. Culture has an awful lot to do with 
this, but we have to train people when we share information 
that is in fact sensitive to keep it sensitive. And, clearly, 
we have not done an adequate job in that area.
    Mr. Simmons. I thank you for that answer. I have got the 
yellow light. Maybe we will get to a second round.
    The chairman recognizes the ranking member.
    Ms. Lofgren. Thank you.
    Mr. Russack, I appreciate your reaching out to the 
committee and your spirit of cooperation with us. I see us as 
your allies in your mission. And, pursuant to that, I am going 
to ask you a question I hope that you are able to answer, which 
is about the budget that you are working with.
    We are asking you to implement the information sharing 
environment, and I want to know the budget that you are working 
with, from where it is sourced, and what are your needs going 
to be on an ongoing basis?
    Mr. Russack. The budget I am working with, let me go back 
to fiscal year 2005, and in fact let me go back to December of 
2004 when the Intelligence Reform and Terrorism Prevention Act 
was signed. That bill says that $20 million is authorized over 
the next 2 years to implement the information sharing 
environment, or words to that effect.
    In 2005, I actually received $9.6 million was appropriated 
for me to start standing up the office and to get going. In 
2006, I do not have a budget line item. So I want to make sure 
I explain this correctly.
    I work for the president through the director of national 
intelligence. The director of national intelligence is working 
on a budget for me. I do not have a budget line item anywhere 
in an appropriations bill. Before I came to this committee, I 
actually did my homework today before I came to this hearing, 
and said I know that I don't officially have any money. 
Obviously, I now have a staff. It is not as large as it is 
going to be. It is going to be a very small staff once it is 
stood up. But I need, to answer your question, I think, based 
on what I intend to do, about $30 million a year.
    And to answer your question about the budget right now and 
fiscal year 2006, the answer is, I am working with the director 
of national intelligence and his staff to actually come up 
internal to his budget with a line item. Again, I am looking 
for about $30 million to do my job. I think I am going to need 
$30 million a year to do a job, as a minimum.
    Will I get that much money? I truly don't know. I have a 
feeing I am going to get at least $20 million to do my job. I 
don't know what the exact number will be, but between the 
appropriation and some reprogramming done within the DNI's 
authority to do reprogramming, and in fact if we add 
supplementals, I will be shooting to get $30 million. I would 
like to have a line item that had the $30 million figure in it.
    Ms. Lofgren. Well, I will just say that if you could 
actually accomplish the information sharing environment 
mission, that would be well worth the investment. It seems to 
me, the country would be considerably safer.
    I will just ask you one quick question before I am out of 
time. Bill Dawson, the Deputy Intelligence Community Chief 
Information Officer, was quoted at an information sharing 
symposium last summer, not this summer but the summer before 
this, that the DCI had established a mandatory write to release 
policy and that there was going to be an enforcement mechanism 
that program funding would be taking away from those who didn't 
comply.
    Are you or the DNI proposing a write to release policy that 
will be applicable to the entire intelligence community, and 
will you have that kind of enforcement that was discussed last 
year?
    RUSSACK; Let me, first of all, address the write to release 
policy. There is already in effect a write to release policy. I 
think, DCID 8/1, and the DCID is a DCI directive. Those in fact 
have been renamed something else now that we have a DNI. I do 
not know what the new name is.
    Ms. Lofgren. Neither do I.
    Mr. Russack. But that directive that Bill Dawson talked 
about last year does in fact talk about write for release, and 
it does mandate that people producing intelligence write to 
release. So that policy is in effect. And I think people are 
writing for release.
    But I think one of the things that we need to do within the 
intelligence community is remind people, educate people. Their 
customers are in fact not just in the intelligence community. 
The customer base for intelligence includes people in the 
state, local, tribal and the private sectors, and many of those 
people don't have security clearances. So, as I said in my 
opening statement, we need to do more business at the 
unclassified level.
    We need to do a better job with tear lines. Tear lines we 
issue at the unclassified level do need to contain context and 
perspective. They need to contain enough information for people 
to make decisions to take action and to base action on to 
protect our country.
    Your question regarding are we in fact enforcing that or 
penalizing in some way people who don't write for release, I 
would like to take that as a question for the record, and I 
will get back to you.
    Ms. Lofgren. All right. That is fair enough.
    Thank you very much, Mr. Chairman.
    Mr. Simmons. Thank you.
    The gentleman from Pennsylvania, Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman.
    Mr. Russack, good afternoon. As you know, the president 
recently signed an executive order creating the Information 
Security Council. It appears that there are no representatives 
of any state or local governments on this Council. Doesn't this 
effectively freeze out states from having any say in what they 
need from DHS from an intelligence standpoint?
    And how can the Council effectively serve the needs of 
first responders and local homeland security authorities when 
the states and local authorities are not even invited to 
participate?
    And you have acknowledged that we are not doing as good a 
job between federal down to state and local officials, so I 
would like you to answer those questions.
    Mr. Russack. Sir, the Information Sharing Council was 
established about 2 weeks ago, and I am sure that is what you 
are referring to.
    Mr. Dent. Yes.
    Mr. Russack. I chair the Information Sharing Council, and I 
can assure you that we will include--there is nothing in that 
executive order that precludes the DNI, the director of 
national intelligence, from reaching out and including state, 
local, tribal and the private sector in that Council. It is my 
intention to do exactly that.
    I mean, I agree with the thrust of your question. We cannot 
create an information sharing environment without taking into 
account the needs of state, local, tribal and private sector 
people.
    My intention is, as the Information Sharing Council--by the 
way, the first meeting will be a week from this coming Friday--
and we will, based on what the discussion items and the issues 
we are attacking and teeing up for resolution are, reach out 
and have representatives from state, local, tribal and the 
private sector help us frame those issues for resolution and 
help is frame options to solve problems.
    Mr. Dent. Well, I am glad to hear you said that. I know it 
wasn't in the executive order, but I am glad to hear that you 
are going to include them. But you also acknowledged during 
your opening comments that many state and local authorities 
have complained about intelligence or information sharing. I 
have heard that quite loudly from some of the folks in my home 
state, and the complaint I often hear is that the products that 
are disseminated by DHS are either irrelevant or untimely or 
both.
    What suggestions do you have to make DHS better able to 
suit the needs of these local authorities? Because, as you 
know, they are the ones who are going to be tasked with 
responding to assessments that DHS is supposed to be providing.
    Mr. Russack. Let me say, first of all, that my deputy--I am 
going to have two deputies. One of my deputies is here today, 
Sue Reingold, the lady on my far right. Sue Reingold is from 
the Department of Homeland Security. She will be a detailee to 
the Program Manager's staff. Sue comes from the state and local 
government portion of the Department of Homeland Security. Sue 
is going to help me in our task of providing state, local, 
tribal and the private sector with the information we need.
    DHS recently selected Charles Eugene Allen, Charlie Allen, 
to be the assistant secretary for information analysis. I was 
Charlie's deputy for 2.5 years of my life. He trained me, to 
some degree. I hope I trained him to some degree also.
    But I can assure you that the relationship between my 
office and the Department of Homeland Security--and we can't 
leave out the Department of Justice or the FBI when we talk 
about state, local, tribal and the private sector. We are going 
to be a team, and we are in fact going to do a better job.
    I think all the people who head those agencies--and I 
mentioned Charlie Allen. I can assure you that he and I had 
lunch a week ago and we talked about ways in which we would in 
fact positively affect the way we share information with the 
customers you describe, and we are going to do it, sir.
    Mr. Dent. Well, I am glad to hear you mention Charlie 
Allen. That was one of my questions, so I am glad to see that 
that is moving forward well.
    But, finally, I just want to suggest one thing. When you do 
sit down with state and locals, I have some people I think who 
could you give some guidance as to what types of assistance 
that you could provide to them, how you can be more helpful to 
them. And I have some very good contacts. I represent a large 
state, Pennsylvania, and I think it would be useful to talk to 
those people about how you go about what you are doing here.
    Mr. Russack. Thank you, sir. I look forward to discussing 
this at greater length with you and getting those names, and I 
look forward to meeting with those people and finding out what 
their needs and working as a team to solving them.
    Mr. Dent. Thank you.
    Mr. Russack. Thank you.
    Mr. Simmons. The chair recognizes the distinguished lady 
from New York who has been a great leader in homeland security, 
Ms. Lowey.
    Mrs. Lowey. Thank you, and I want to thank the chairman and 
the ranking member for calling this hearing, because it is so 
important.
    And as my colleagues have mentioned several times, I hear 
about this all the time. And we do hear that it is getting 
better, but it is just not good enough. So I thank you very 
much for your testimony.
    As you said, it is clear that long-held attitudes and 
procedures pose a great challenge, which is probably the most 
understated statement we have made today. And I agree 
wholeheartedly with the recommendation of the 9/11 Commission 
with respect to providing incentives for information sharing 
between government agencies and state and local authorities.
    It seems to me it is simply not enough to say, ``We support 
or encourage information sharing, this is tough, it is hard to 
do, every department has its own procedures in place and they 
don't want to share.'' It seems, based upon all the information 
we have received, there needs to be a comprehensive system of 
carrots and sticks to ensure that it happens.
    Now, according to testimony that we will hear later on in 
this hearing, the former 9/11 commissioners have indicated that 
there has been minimal progress toward implementation of this 
recommendation. So if you could follow up your previous 
comments and describe your progress toward instituting concrete 
incentives to encourage information sharing, I would be most 
appreciative.
    I guess what most of us are pretty concerned about is 9/11 
is in the past, we have been hearing about information sharing 
a long time, we have been hearing about the barriers between 
various officials that don't want to share information. What 
are you really doing about it and could you describe the 
progress toward that end?
    Mr. Russack. Certainly. Let me, first of all, say that when 
you ask about concrete incentives, I am going to walk backwards 
a little bit and say that--
    Mrs. Lowey. I would rather say, you were appointed by the 
president. He says, ``Do it,'' and that should be enough for 
any member of the administration, ``Just do it.'' But since 
that doesn't seem to happen, that is why I am talking about 
concrete incentives.
    Mr. Russack. Mr. Dent mentioned a moment ago the 
Information Sharing Council. I think the establishment of this 
Council goes a long way to actually helping us, we the nation, 
achieve concrete examples of what we are going to do to solve 
the information sharing problem.
    Most of the problems, as I stated before, are not technical 
problems. They are roles, missions, responsibilities, 
authorities, problems, policies that we need to change or 
modify to enable the information sharing.
    In June, when I testified before the Senate Judiciary 
Committee, I had myself and one other person on my staff. Right 
now, I have a dozen, and we should be up to about 25 by the end 
of this month. The Information Sharing Council did not exist 
until a week ago. That is up. The first meeting will be a week 
from Friday.
    I can't really talk in real terms, concrete terms about 
what my staff has done beyond a few things. The staff has stood 
up the Information Sharing Council, required by law stood up. 
Working pilots. I am working two pilot programs right now. I 
would like to be working 10 or a dozen.
    I have a pilot program with the FBI field office in New 
York City on information sharing where we are taking 
intelligence community information via the National 
Counterterrorism Center and getting sensitive but unclassified 
information to FBI special agents in the field. That has proven 
to be very, very useful and very, very valuable to them.
    I have a plan to export that, not only to the FBI field 
office in New York City but also to the FBI field office in 
Washington, D.C. I would like to also get New York City police 
involved in this pilot program, as well as the Metropolitan 
Washington, D.C. police involved in that program.
    That is one example of a pilot program, something tangible 
that we are doing. When you do a pilot like that, first of all, 
it is very cheap, relatively speaking; it does cost money. That 
is one of the things I would like to put more money into and 
expand that to some major cities across the country and major 
police departments.
    But when you do a pilot like that, immediately or very 
quickly after you establish the pilot, you actually are seeing 
information being shared at a much better level, a much higher 
level. We are sharing information with them, we are sharing 
pictures on handheld devices in the field that aids in 
identification of individuals coming into our country.
    Another pilot that we are working is with the Department of 
Energy and the DOE National Laboratories. It is a pilot that is 
focused on nuclear terrorism. It is focused on security of 
fissile material, and it is focused on getting the advantage of 
the DOE National Laboratories over many people is they have 
probably the national treasure trove in nuclear expertise. They 
are the people that build the U.S. government's weapons, they 
maintain the nuclear stockpile.
    So what we are doing is leveraging the DOE National 
Laboratories and providing them information sharing, 
information access, providing them with more information with 
which to help us assess the terrorist threat and to do 
validation of reporting and in fact to try and get them to help 
targeting of collection.
    So that is two concrete examples of just pilots. And what I 
would like to do is run 10 or 12 pilots by the end--I can't say 
the end of the year, we are getting there pretty quickly, but 
over the next 360 days. If I come back and talk to you a year 
from now, I would like to tell you about 10 information sharing 
pilots that we are working, that in fact are giving, providing 
better information, better quality information to first 
responders, to state, local, tribal and the private sector.
    And at the same time we are giving them information, we are 
fleshing out policy issues. For example, in the New York City 
pilot with the FBI, we are actually seeing directives and 
policy issues that need to be changed to enable a better flow 
of information.
    Mrs. Lowey. Well, the red light is blinking away. Let me 
thank you, and I look forward to hearing progress, especially 
with the New York City pilot, because, as you probably know, 
after 9/11, the New York City Police Department ended up 
developing its own counterterrorist intelligence unit. They 
have people all over the world, because of the lack of 
appropriate information sharing and accurate information 
sharing.
    So if there is progress, I am really pleased, and I look 
forward, Mr. Chairman, in getting continuing updates. Thank you 
very much.
    Mr. Simmons. And just for the information of the 
subcommittee, we have done a classified briefing on the New 
York transit issue, and the Chief Information Office, the 
Department of Homeland Security attended that, as did other 
officials. And so we have been doing quite a bit of work in 
focusing on information sharing relative to that incident. And 
I believe there will be additional visits to New York City in 
the future to work that dimension of the problem.
    Mrs. Lowey. Mr. Chairman, if I may just thank you, because 
I attended one of the meetings and because of a conflict I 
couldn't attend the second one. But I thought the Department of 
Homeland Security's response was totally inappropriate and out 
of order, and I do believe that was the view of almost every 
member of this committee who attended that meeting.
    If they had a beef with New York City--and I will tell you, 
if I had to depend on--I won't contrast it. Let me just say I 
have tremendous confidence in Commissioner Ray Kelly, and I 
think if the Department of Homeland Security thinks they know 
more and knows different, it shouldn't have been aired on the 
front pages of the paper. But we will leave it at that, and 
thank you for following up.
    Mr. Simmons. Absolutely.
    The chair now recognizes the gentleman from Rhode Island, 
Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Mr. Russack, I want to thank you for being here. I 
appreciate your testimony. I have a couple questions, a follow-
on to a question that Mr. Dent had first raised in relation to 
this, anyway.
    It is my understanding that the president has assigned you 
the responsibility for completing guidelines describing how the 
intelligence community should convert classified intelligence 
information to a sharable format for use by state, local and 
tribal law enforcement officers, an obligation imposed in the 
Intelligence Reform Act. Those guidelines were due on September 
13, 2005 but apparently were delayed because of Hurricanes 
Katrina and Rita.
    So my question is, have the guidelines been completed, and 
if not, why not? And when can we expect them? And if you would 
like to comment further, you did, I guess, answer the question 
of to what extent the Department of Homeland Security's Chief 
Intelligence Officer, Charlie Allen, has been involved in this 
process. You could expand upon that, if you would, and, again, 
state his role in the development of those guidelines.
    Mr. Russack. Let me, first of all, address the second part, 
Charlie Allen's involvement in the guidelines. Charlie hasn't 
been at the Department of Homeland Security, as you know, sir, 
very long, I think probably about 3 or 4 weeks at this point.
    The Department of Homeland Security, the process for 
establishing the guidelines, writing the guidelines was that 
there is an Information Sharing PCC. PCC is a Policy 
Coordinating Committee. It is chaired by a representative, a 
senior director, from the Homeland Security Department as well 
as by a senior director from the National Security Council.
    The Information Sharing PCC, along with the members of the 
PCC--I am a member of the PCC, the DNI's CIO, chief information 
officer, is a member, most of the federal departments and 
agencies are members of that PCC. We as a group drafted 
guidelines, and we drafted guidelines for White House staffing. 
The Department of Homeland Security was very much involved in 
the drafting of those guidelines, as were all departments and 
agencies.
    To answer your question on, basically, where are they, the 
guidelines were drafted and I think--again, I am not an expert 
on where they stand at the present time, but I know we asked 
for an extension, we the federal government--I am speaking for 
the big ``we'' here--the administration asked for an extension 
and actually talked to various committees on the Hill because 
of the hurricanes that you mentioned. And the guidelines are in 
final staffing.
    Mr. Langevin. When can the committee expect them?
    Mr. Russack. Can I take that for the record, sir, because I 
am not sure I am in a position to really answer that. I will 
have to get back to the people who are actually staffing those 
and get you an answer.
    Mr. Langevin. That would be fine. The committee, I know, 
would appreciate it and look forward to hearing from you on 
that.
    Mr. Russack. Yes, sir.
    Mr. Langevin. Well, the other question I have is, could you 
describe, basically, your key successes thus far in helping to 
implement the information sharing environment? And to what 
extent does success depend on cooperation from various agencies 
that comprise the intelligence community? In fact, further, are 
there any members of the intelligence community that are not 
effectively cooperating with you?
    Mr. Russack. Let me go in reverse again, if I can. I think 
all members of the intelligence community are in fact 
cooperating, and I can assure you that the director of national 
intelligence is insisting that they cooperate. And when people 
don't cooperate with me, I tell my boss. My immediate boss of 
the DNI, and he is more than happy to pick up the phone or to 
talk to someone about any lack of coordination. So there is 
cooperation.
    And I can assure you that the DNI wants to share. And I can 
assure you, as I said earlier today, that we can and will 
protect sensitive sources and methods, ad we will share the 
information people need to base decisions on to protect 
America.
    So there is a desire to share, there is in fact the 
leadership mandating sharing.
    Key successes, I think the two pilots I mentioned to the 
gentle congresswoman from New York are pilots that are going 
and they will be, I think, very successful. I would like to 
have, as I said earlier, about 10 or 12 of these pilots 
operating over the next year.
    The fact that we have an Information Sharing Council that, 
as Congressman Dent mentioned and asked good questions about 
how we were in fact going to take into account the needs of 
state, local, tribal and the private sector, the fact that this 
Council, we have the names of the representatives across our 
federal government.
    We are going to reach out through global justice, through 
the National Association of Governors and through other 
mechanisms. We are going to reach out to people in the state, 
local and the private sector. We are going to in fact find out 
what is not working the way it should work, what information is 
not being shared, what information do they need, what are their 
requirements, and we are going to in fact develop options that 
will allow information to be shared, allow people to have 
access to information that they need.
    So my staff and my achievements thus far, I mean, I would 
like to be further ahead of where I am at the present time. As 
I said earlier, back in June, I had a staff of two. Now, I have 
a dozen. I have a dozen really good people. I have been offered 
as many as 50 or 100 people. I have talked to a lot of people. 
I have not taken anyone on my staff that I have not personally 
hand selected with the skill sets, the passion, the motivation 
to get the job done.
    So concrete examples of where I am, we have an Information 
Sharing Council--first meeting will be a week from Friday--we 
have some pilots in operation. I am working hard on the 
deliverables I owe to the Congress. The president and I, in 
conjunction with this Information Sharing Council, are to make 
a report to you, Members of Congress, by the 17th of June on 
more specificity on what this new information sharing 
environment is going to be, how will it work? That is what we 
are working on.
    Right now, we have three working groups, actually steering 
groups, in place. Those steering groups are actually getting 
their arms wrapped around existing federal, state, local, 
tribal, private sector programs that exist, that mandate and 
foster information sharing.
    The steering groups are in fact trying to get their arms 
around all the working groups that various departments have 
that are ongoing. For example, inside the DNI's world, there is 
an entity called, ``The Information Sharing Working Group.'' 
And then there is the Information Sharing Working Group-L, 
which deals with foreign liaison. We are taking into account 
all the things that are going on and getting our arms wrapped 
around that.
    I have a contract with an FFRDC to help me baseline the 
existing information sharing environment. And one exists now. 
As I said earlier, it is flawed.
    Mr. Simmons. For the record, FFRDC, for the record?
    Mr. Russack. Federally funded research and development 
activity. Those are think tanks that are not for profit, sir. I 
took data that was given to me by the Office of Management and 
Budget and turned that over to this FFRDC, and I said, ``Help 
me baseline the existing environment. Help me get my arms 
wrapped around what existing federal programs various 
departments have.''
    So what they have done is they have come back to me with a 
preliminary report, I got it last week, and the four major 
federal agencies that play in information sharing, the first 
one being the entire intelligence community, they have given me 
a preliminary report on what the IC is doing in information 
sharing, what systems are being used.
    The next one is the Department of Homeland Security, what 
they are doing in information, what systems are being used; the 
Department of Defense, same for them; and also Justice, 
Department of Justice, and the FBI.
    So that is probably all I can really say in response to 
your question on something concrete that we have done thus far.
    Mr. Langevin. Well, I see my time is expired, but you have 
painted obviously a picture of a very aggressive and 
comprehensive agenda. Perhaps a bit rosy picture you have 
presented, but I certainly wish you well, and the committee 
will be looking forward to hearing more from you on the 
progress that you are making. Thank you.
    Mr. Russack. Thank you, sir.
    Mr. Simmons. I thank the gentleman.
    I see that our second panel has arrived, but before I 
introduce them, I would like to make one comment. You mentioned 
open sources of intelligence as an important adjunct to the 
classified side, and, clearly, open sources of intelligence 
obviate the problems of information sharing. And I think that 
that is an important capability that we need to think about in 
the future.
    I also note that issue one in your report regarding current 
authorities concludes that it is not clear at this point 
whether statutory changes will be required to clarify these 
governance issues. I would urge you and your staff to notify us 
of statutory changes are necessary, and this subcommittee would 
be more than happy to consider those and move those forward on 
an urgent basis, because we feel that information sharing is 
critically important to our national security.
    I also note that there are several major reports and 
guidelines that are coming due in the coming months, and we 
encourage you to work hard to meet those deadlines, again, 
because of the importance of these issues.
    On the issue of money, the $20 million or $30 million, the 
ranking member and I will take that issue under advisement and 
we will do our best effort here to address that issue in the 
coming weeks and months in a bipartisan fashion.
    That being said, on behalf of the subcommittee, I want to 
thank you for your testimony, but, more important, I want to 
thank you for taking on a job that is not easy, that involves 
breaking a little glass, that involves moving our intelligence 
capabilities in a direction that previously was very difficult 
to move, and we hope that you will consider this subcommittee 
to be a co-partner in the enterprise.
    Mr. Russack. Thank you, sir.
    Mr. Simmons. And thank you very much.
    Mr. Russack. Thank you.
    Mr. Simmons. The chair now calls the second panel to the 
table. The Honorable Lee Hamilton, vice chairman of the 9/11 
Public Discourse Project, and Mr. William Crowell from the 
Markle Foundation's Task Force on National Security in the 
Information Age.
    The Honorable Lee Hamilton is the director of the Center on 
Congress at Indiana University and also serves as president and 
director of the Woodrow Wilson International Center for 
Scholars here in Washington, D.C.
    He served from 1965 to 1999 as the U.S. Representative from 
Indiana. During his tenure, he served as chairman and ranking 
member of the House Committee on Foreign Affairs and was also 
chairman of the Permanent Select Committee on Intelligence.
    He served as vice chairman of the National Commission on 
Terrorist Attacks Upon the United States, or the 9/11 
Commission, and is now vice chairman of the 9/11 Public 
Discourse Project.
    Welcome, Mr. Hamilton.
    And now I would like to yield to the ranking member for the 
introduction of Mr. Crowell.
    Ms. Lofgren. Thank you, Mr. Chairman. It is nice to split 
up the introductions.
    Bill Crowell, until recently a constituent of mine, is an 
independent consultant, also director and chairman of the Board 
of BroadWare Technology, director of ArcSight and director of 
NARS. He was appointed in 2003 to the Unisys Corporate Security 
Advisory Board to address emerging security issues and best 
practices. And in September 2003, he joined the Advisory Board 
of ChoicePoint, a data aggregation company.
    Bill Crowell served as president and chief executive 
officer of Cylink, a leading e-business security solution 
company until it was acquired in February 2003 by SafeNet.
    Prior to all of this, and when I first met him, Mr. Crowell 
served for nearly 4 years as deputy director of the National 
Security Agency where he had held a series of senior positions, 
including deputy director of operations. He also, in 1999, was 
appointed to the President's Export Council and chaired the PEC 
Subcommittee on Encryption where he did good work. And in March 
of 2001, the secretary of defense appointed him to the Federal 
Advisory Committee that conducted a comprehensive review of the 
U.S. Nuclear Command and Control System.
    As you have noted, Mr. Chairman, he served on the Markle 
Foundation Task Force since 9/11, and I would say, really, Bill 
in his entire professional career as well as a volunteer has 
spent his life trying to make sure our country was safe, for 
which we thank him and also welcome his testimony today.
    Mr. Simmons. Thank you.
    The chair now recognizes the Honorable Lee Hamilton. 
Welcome. Thank you for being here. Good to see you again. We 
look forward to your testimony.

STATEMENT OF HONORABLE LEE HAMILTON, VICE CHAIRMAN, 9/11 PUBLIC 
                       DISCOURSE PROJECT

    Mr. Hamilton. Thank you very much. It is a pleasure to be 
here, Chairman Simmons and Ranking Member Lofgren and the 
distinguished members of the subcommittee.
    The first point I want to make, simply, is an expression of 
thanks to you for your efforts on oversight of the intelligence 
sharing, information sharing problem. I think it is enormously 
important that that be done and that you keep close track of 
it, and I am pleased that you are doing that.
    And I think the view of all the commissioners no single 
step is more important than information sharing in our efforts 
to strengthen the intelligence community and thereby ensure the 
safety and security of the American people.
    In our view, it was poor information sharing that was the 
single greatest failure of our government in the lead-up to the 
9/11 attacks. And it was a contributing factor to the 
government's missteps in understanding and responding to the 
threat of al-Qa'ida.
    If you looked at the missed opportunities, and we laid them 
out in our report, they are a good many of them, almost all of 
them involved in some way or the other the failure to share 
information.
    The second point I want to make is with regard to the 9/11 
Commission recommendations. We really made two in this area. 
One is that information procedures have to provide incentives 
for sharing to restore a better balance between security and 
shared knowledge. That is not easy to do, we recognize that, 
but it is essential. And, secondly, the second recommendation 
was that the president has to lead the government-wide effort 
to bring major national security institutions into the 
information revolution. He only is the person that can 
coordinate and do it.
    You have now, of course, enacted into law the Intelligence 
Reform and Terrorism Prevention Act, and I will give you a 
quick view of how we look at the progress under that act thus 
far.
    Despite the enactment of the statute, despite the creation 
of the Program Manager Office, it is our view that we have 
really made minimal progress toward establishing a seamless 
information sharing system. You can change the law, you can 
change the technology, you still have to change the culture, 
and you need to motivate institutions and individuals to share 
information.
    We commend Mr. Russack and his small team. We think they 
are demonstrating a very strong commitment to the whole concept 
of information sharing. Congress has authorized but not yet, as 
I understand it, appropriated funding for the Program Manager's 
Office, and he and the Information Sharing Program need a lot 
of support.
    It is our view that agencies still want to control the 
information they produce. They view it as their property, 
rather than the property of the entire government and the 
property of the American people. And for information sharing to 
work, of course, the right people have to get the right 
information at the right time.
    We are particularly concerned about the poor information 
sharing with state and local authorities. We are troubled by a 
number of stories. We have heard about that. I will not go into 
that in detail unless you want to on the questions.
    Let me just conclude my remarks by saying that we think 
there are several important steps that need to be taken. One, 
to press the Congress to ensure that the Program Manager gets 
the funding and the resources and the personnel he needs to 
carry out his very important mission. If that is not done, you 
will not get good flow of information.
    Second, the Program Manager will need very strong support 
from the president and direct engagement of the senior 
leadership of the Homeland Security Council.
    Third, to press the executive branch to produce the 
information sharing reports that are already required by law. I 
was listening to the testimony a moment ago and it is 
encouraging, but what struck me about is just the few minutes I 
was sitting here is that it is very future-oriented.
    The important thing is what are the capabilities now? What 
can they do right now? The terrorists are not going to wait. We 
have to have these capabilities in place now. And when I hear 
this testimony, not just from the Program Manager but others, I 
just don't have a sense that they have a sense of urgency about 
this problem. It is kind of a business as usual approach.
    So these reports are required by law. The September 
guidelines from the president to the executive agencies are 
late already. The December report is a crucial report, and I 
urge the committee, the subcommittee here, to make completion 
of the report and its implementation a very high priority.
    Fourth, I believe this committee should revisit the 
question as to whom the Program Manager reports to. He reports 
now to the DNI, but his responsibilities with regard to 
information sharing inside the intelligence community go beyond 
that, include information sharing for other federal agencies 
for state and local, tribal authorities in the private sector, 
and I think you ought to consider very carefully whether or not 
he would be more effective if he were placed in the executive 
office of the president with direct line authority from the 
president.
    So to conclude, we need to change from a system in which 
the originating agency of classified information is the sole 
arbiter of which other agencies are allowed to see the 
information. That is the deeply routed culture in the 
intelligence community, and that is far too restrictive for the 
kind of information flow you need in a good counterterrorism 
strategy. The right information must be made available 
instantly at all levels of government and to the private 
sector, and that requires a change in the culture.
    The actions of those who would do us harm are not under our 
control, but our system of information sharing is under our 
control. It demands urgent attention. We can fix it. There 
certainly will be no excuse if we fail to do it.
    Thank you very much for the attention you are paying to 
this critical problem. All of us on the Commission, former 
commissioners, are grateful to you, and we look forward to your 
continued oversight of this very important matter.
    [The statement of Mr. Hamilton follows:]

               Prepared Statement of Hon. Lee H. Hamilton

    Chairman Simmons, Ranking Member Lofgren, distinguished members of 
the Subcommittee on Intelligence, Information Sharing, and Terrorism 
Risk Assessment: It is an honor to appear before you today to discuss 
the important issue of government-wide counterterrorism information 
sharing and the role of the Program Manager.
    At the outset, I want to commend you for holding this hearing. 
Information sharing across our government benefits directly from the 
focus you bring to it. Those who are charged with improving information 
sharing need your oversight and support.
    The guidance you provide will help break down barriers to 
information sharing among the authorities in our federal, state, and 
local levels of government.
    It is my firm belief that no single step is more important than 
information sharing as a way to strengthen our intelligence and thus 
ensure the safety and security of the American people.

I. What the 9/11 Commission Found
    Poor information sharing was the single greatest failure of our 
government in the lead-up to the 9/11 attacks. The failure to share 
information adequately, within and across federal agencies, and from 
federal agencies to state and local authorities, was a significant 
contributing factor to our government's missteps in understanding and 
responding to the growing threat of al-Qa'ida in the years before the 
9/11 attacks. There were several missed opportunities to disrupt the 9/
11 plot. Most of them involved the failure to share information.
    The 9/11 Commission found that the biggest impediment to all-source 
analysis--to a greater likelihood of connecting the dots--is the human 
or systemic resistance to sharing information. We believe the ``need-
to-share'' principle must be accorded much greater weight in the 
balance with the longstanding ``need-to-know'' principle of information 
protection.
    Given the changes necessary across the government, it is clear to 
us that no single agency can bring about these changes alone. Only 
presidential leadership, with robust congressional oversight, can bring 
about the necessary changes in information sharing.

II. Recommendations to Improve Information Sharing
    The 9/11 Commission made two recommendations to improve information 
sharing:
    First, ``Information procedures should provide incentives for 
sharing, to restore a better balance between security and shared 
knowledge.'' (The 9/11 Commission Report, p. 417)
    Second, ``The president should lead the government-wide effort to 
bring the major national security institutions into the information 
revolution. He should coordinate the resolution of the legal, policy, 
and technical issues across agencies to create a ``trusted information 
network.'' (The 9/11 Commission Report, p. 418)

III. The Intelligence Reform and Terrorism Prevention Act of 2004
    Last December, President Bush signed into law the Intelligence 
Reform and Terrorism Prevention Act of 2004 (IRTPA). The Act drew upon 
the 9/11 Commission's recommendations and created a program manager for 
information sharing. Specifically, Section 1016 directs the program 
manager to ``facilitate information sharing between Federal departments 
and agencies and State, tribal, and local governments . . . and the 
private sector.''
    In April the President selected Mr. John Russack for that important 
post. An executive order placed Mr. Russack's office under the new 
office of the Director of National Intelligence.
    The Act also called for the establishment of an Information Sharing 
Council (ISC). On October 25, President Bush issued an executive order 
creating the ISC, which will bring together the heads of at least 12 
federal agencies to provide advice on how to share information about 
potential terrorist activity. The President has asked these top 
officials to assist the program manager to ensure that counterterrorism 
information is broadly shared across the federal government and among 
state and local authorities, and the private sector.

IV. Information Sharing Still Far from Optimal
    Despite the enactment of the statute, and the creation of the 
office of Program Manager, we have made minimal progress toward the 
establishment of a seamless information sharing system. You can change 
the law, you can change the technology, but you still need to change 
the culture; you still need to motivate institutions and individuals to 
share information.
    We commend Mr. Russack and his small team: they are demonstrating a 
strong commitment to enhancing information sharing. Congress has 
authorized, but not yet appropriated, funding for the Program Manager's 
office. The Information Sharing Program Manager needs strong 
congressional oversight and support so that it can accomplish its 
important mission.
    We note that the National Counterterrorism Center has implemented a 
system in which analysts have access to streams of information from 26 
different systems. Representatives of those agencies involved in 
counterterrorism have access to this pool of information within the 
NCTC. This is a positive development at the federal level but this is 
too narrow.
    Agencies still control the information they produce. They view it 
as their property, rather than the property of the entire government, 
and the property of the American people. For information sharing to 
work, the right information must get to the right person at the right 
time. Moreover information sharing with state and local authorities has 
only marginally improved.

V. Poor Information Sharing with State and Local Authorities
    Frankly, my fellow Commissioners and I are troubled by stories we 
have heard from federal, state, and local officials with knowledge of 
the state of information sharing. They tell us they do not get the 
information they need from the federal government. Communication and 
collaboration between the Department of Homeland Security (DHS) and 
state homeland security officials nationwide is not what it should be. 
Communication between the FBI and local law enforcement also falls 
short.
    Historically, federal law enforcement agencies have been unwilling 
to share information with their state and local counterparts. Distrust 
continues to exist between federal and local partners. State and local 
officials, for their part, traditionally have kept information to 
themselves, and have been frustrated by the lack of a system into which 
to feed their information. Federal authorities need to build confidence 
with state and local officials by developing systems on which they are 
trained, a broad concept of operations they understand, and a standard 
reporting procedure that they know how to use.
    Federal agencies cannot expect state and local officials to 
cooperate with them if they do not provide reliable and consistent 
leadership. The recent controversy over the credibility of a threat to 
New York City's subway system is a case in point. On October 6, the New 
York Police Department reacted to information from the FBI which 
suggested the system was at risk of being attacked in the next few 
days. DHS, however, took a different position, and evaluated the 
information as less than credible.
    I believe the NYPD acted responsibly, based on the information it 
was given. But clearly in a dynamic situation such as this, there needs 
to be far better coordination between federal and local authorities. 
Action cannot wait until final analysis of intelligence is made. But 
the federal government needs to do a better job in sending a consistent 
message to local officials as a situation develops, both in how the 
threat is evaluated and acted upon.
    Relationships with state and local authorities need to be 
strengthened. State and local authorities need to know that the 
information they provide to DHS will be properly integrated and not 
ignored. They need to know that DHS will provide the necessary 
information to them in return.
    We hear reports that the FBI does not recognize clearances granted 
by DHS to state and local authorities. A police chief could not visit 
his own officers detailed to an FBI Joint Terrorist Task Force, because 
his clearances did not come through the FBI.
    State and local officials have been unable to get secure telephones 
for conversations with federal officials about sensitive information. 
Therefore, necessary conversations take place late if they take place 
at all.
    Understandably, state and local officials resent being cut out of 
the information loop.
    The information sharing provisions of Intelligence Reform and 
Terrorist Prevention Act, which are intended to implement common 
standards and bring feuding federal, state, and local agencies 
together, are still a long, long way from being implemented. Given the 
urgency of the threat, this is unacceptable. We must do better. And we 
must do it sooner rather than later.

VI. Scorecard on Information Sharing
    On October 20, the former 9/11 Commissioners issued a scorecard 
evaluating progress the government has made in implementing the 
Commission's recommendations concerning institutional reform in the 
aftermath of 9/11. Here's what we said with respect to our two 
recommendations on information sharing:

INCENTIVES FOR INFORMATION SHARING
    ``Information procedures should provide incentives for sharing, to 
restore a better balance between security and shared knowledge.'' (p. 
417)

Grade: MINIMAL PROGRESS
    What has happened: According to the Intelligence Reform and 
Terrorism Prevention Act of 2004 (PL 108-458), the President shall 
require the heads of federal departments and agencies to promote a 
culture of information sharing by both reducing disincentives and 
providing affirmative incentives for sharing information. The DNI also 
has responsibility for establishing policies and procedures to ensure 
the maximum availability of, and access to, intelligence information 
within the intelligence community. A program manager has been 
designated by the President as responsible for information sharing 
across the federal government. This office is still a start-up. So far, 
if there have been changes in incentives, in favor of information 
sharing, they have been negligible.
    Why this is still important: The 9/11 story included numerous 
examples of how a mentality of limiting information sharing to those 
with a ``need to know'' in fact kept information from getting to the 
right people at the right time. Cultures will not change without 
policies in place that actively encourage such change, and without the 
sustained implementation of those policies.
    What needs to be done: The President and the DNI need to make 
change in the culture of information sharing a priority through clear 
and visible support. They need to develop positive incentives for 
information sharing to balance the many disincentives on the books. 
Personnel should be evaluated on how well they share information rather 
than how well they hoard it. Agency leaders should be evaluated on how 
well they create an environment that promotes sharing. Information 
sharing must be improved not only across the federal government but 
with state and local authorities.
    PRESIDENT SHOULD LEAD NATIONAL SECURITY INSTITUTIONS INTO THE 
INFORMATION REVOLUTION
    ``The president should lead the government-wide effort to bring the 
major national security institutions into the information revolution. 
He should coordinate the resolution of the legal, policy, and technical 
issues across agencies to create a `trusted information network.' '' 
(p. 418)

Grade: MINIMAL PROGRESS
    What has happened: The Intelligence Reform and Terrorism Prevention 
Act of 2004 (PL 108-458) required that the President create an 
information sharing environment to provide and facilitate the means for 
sharing information through the use of policy guidelines and 
technologies. Within the intelligence community, the DNI has all 
necessary support and authorities from the President to ensure maximum 
availability of and access to intelligence information. Outside the 
intelligence community, a program manager has been designated by the 
President as responsible for information sharing across the federal 
government, yet there are few signs of the actual implementation of a 
``trusted information network.'' The program manager does not yet have 
the personnel and resources necessary to assert authority across the 
federal government.
    Why this is still important: Only with White House leadership can 
legal and policy obstacles be overcome to bring our national security 
institutions into the information revolution.
    What needs to be done: The President needs to make information 
sharing a priority. Designating officials to be in charge is not 
enough; they need resources and active presidential backing to change 
the information systems that enable information sharing, the policies 
and procedures that compel sharing, and the systems of performance 
evaluation so that personnel are appraised on how they carry out 
information sharing.
    We noted that the Director of National Intelligence needs to be a 
driving force to improve information sharing but that he must be given 
strong support by the President. Ten months have passed under the new 
law. Progress is minimal. To his credit, the DNI is seized with the 
issue of information sharing, but the horses are barely out of the 
gate. He must press the issue and press it very hard. We said that the 
DNI will be judged in part on information sharing. His customers are 
not just in the federal government; they are state and local officials 
as well.

VII. Next Steps
    Mr. Russack, who has one of the most difficult jobs in government, 
will need strong support as he seeks to resolve the legal, policy, and 
technical problems that impede information sharing.
    I urge the Homeland Security Committee to do the following:
    First, to press the Congress to insure that the Program Manager 
gets the funding, resources and personnel he needs to carry out his 
mission.
    Second, the Program Manager will need strong support from the 
President and the direct engagement of senior leadership of the 
Homeland Security Council.
    Third to press the Executive branch to produce the information 
sharing reports required by law. The September guidelines from the 
President to the Executive agencies are late. The December report is a 
crucial report--spelling out an Information Sharing Environment for the 
entire government. This report is the implementation plan for 
information sharing. I urge this Committee to make the completion of 
this report--and its implementation--a high priority.
    Fourth, I believe this Committee should revisit the question as to 
whom the Program Manager reports. Currently, he reports to the DNI, but 
his responsibilities go beyond information sharing inside the 
intelligence community and include the facilitation of information 
sharing for other federal agencies, state, local and tribal 
authorities, and the private sector.
    Information sharing is not just a federal problem, it's a national 
problem. The Program Manager should be placed in charge of the policy 
committees that are charged with improving information sharing across 
the government. Congress should consider whether he would be more 
effective if he were placed in the executive office of the president 
with direct line authority from the president.

VIII. Conclusions
    Mr. Chairman, we need to change from a system in which the 
originating agency of classified information is the sole arbiter of 
which other agencies (federal, state, or local) is allowed to see the 
information. This is far too restrictive for the flexible adversary we 
face. Information collected by any federal agency is the property of 
the federal government and by extension the property of the American 
people.
    The right information must be made available instantly, at all 
levels of government and to the private sector, to those men and women 
who have both the mission and the means to act against our enemies 
before they can act against us.
    Success requires that the flow of information be not just a one-way 
street. Federal, state and local agencies must exchange intelligence, 
and cooperate in planning and executing joint operations.
    The actions of those who would do us harm are not under our 
control. But our system of information sharing is under our control. It 
demands urgent attention. We can fix it. There will be no excuse for a 
future failure if we do not.
    I commend this Committee for its important attention to information 
sharing. I look forward to working with you, and would be pleased to 
answer your questions.

    Mr. Simmons. I thank you for that testimony.
    The chair now recognizes Mr. Crowell.

 STATEMENT OF WILLIAM CROWELL, MARKLE FOUNDATION TASK FORCE ON 
            NATIONAL SECURITY IN THE INFORMATION AGE

    Mr. Crowell. Chairman, Congressman Lofgren and 
distinguished members, thank you very much for allowing me to 
be here and testify before this subcommittee.
    I have had the privilege of being a member of the Markle 
Task Force on the National Security in the Information Age 
since its inception in March of 2002, and it was created 
specifically to focus on how best to mobilize information and 
intelligence resources to improve security, while still 
protecting privacy and civil liberties.
    The Markle Foundation has issued two reports. Both of those 
reports have stressed the importance of a decentralize network 
of information sharing and analysis that achieves security, 
while at the same time protecting our civil liberties. And it 
has also stressed the need to have clear and understandable 
rules and business practices on collection and sharing of 
information that is permissible and that which is not 
permissible. And I will stress that point a couple of times in 
my opening remarks.
    On September 6 of this year, co-chairman Jim Barksdale and 
Zoe Baird, sent a letter to the president on behalf of the task 
force and our thoughts on the progress of the information 
sharing environment. The letter is attached to my testimony, 
along with the response from the White House.
    In addition, Zoe Baird testified to the House Intelligence 
Subcommittee on Oversight in an open hearing on October 19, 
2005, and my remarks today largely parallel and mirror the 
letter and the subsequent testimony.
    I really recognize that John Russack has a very, very 
difficult job, but I would like to try and outline five points 
that we, in the Markle Foundation, believe are important to 
getting on with the task.
    The first one is to reestablish a sense of urgency to share 
information. To the earlier point made, we have a lot of 
information today and we can share it today. We don't have to 
wait till tomorrow to begin doing that.
    So getting the information sharing business right will pay 
dividends not just for preventing terrorism attacks but also 
for dealing with natural disasters as well. And so consistent 
and persistent leadership is needed in order to put all of the 
well-meaning people on the right path to getting this done.
    The second point is to empower the Program Manager with the 
resources and statute he needs to create the information 
sharing environment. John now has 12 people, according to his 
earlier testimony. He obviously needs many more than that. He 
needs a budget and budget line item that he can depend on and 
be able to plan against. And I think, by the way, that giving 
him the position of chair of the Information Sharing Policy 
Coordinating Committee would go a long way toward increasing 
this statute and getting this job done.
    Third point is, translate the law and executive orders into 
government-wide consistent guidelines. What we have today is an 
agency-by-agency interpretation of what they can and cannot do, 
and it varies widely, both in the areas of security and in the 
area of privacy, which is an impediment to getting on with this 
job. So new laws and executive orders have not yet been 
translated into new practices and guidelines. And it is 
business as usual. Nothing has really changed.
    So the ambiguities in the lines of responsibility are 
actually impeding people's agreement to move toward a vision of 
sharing information.
    So we need guidelines that will establish uniform rules and 
procedure for the security of information and for protection of 
privacy and civil liberties. We need to update the U.S. person 
rule, which in many agencies restricts the flow of information 
when the information was lawfully collected in the first place, 
but restricts it for reasons that are not clear in terms of 
protecting personal privacy.
    We need to change the classification procedure. This is a 
crucial topic, as has already been mentioned. Many agencies 
believe they own the information. They express that ownership 
in the form of originator-controlled information, and that 
should be used very judiciously. And the rules regarding 
classification should clearly distinguish between information 
that is actionable and the sources and methods from which that 
information came from.
    We should ensure policy compliance oversight and dispute 
resolution structures that keep the policies viable. I can't 
emphasize enough the need to have dispute resolution 
structures, because people are going to want to break crockery 
in getting actionable information to state, local and tribal 
and private sectors.
    John's comment on technology was appropriate. It is not an 
impediment; it is a path and an enabler. But I would point out 
that the acquisition of new technology must be streamlined, and 
new legislation that has given agencies the flexibility they 
need to buy needed IT systems are not being used or not being 
used effectively by those agencies.
    Fourth point, we need to adopt a risk management approach 
to information sharing. We are not advocating that all 
information be shared with everyone. We suggest, though, that 
when information has real actionable value, the way should be 
found to share that information.
    And perfect information security in this trusted system is 
not going to be possible, and the cost of getting it might be 
too high. The current approach does not consider risk from 
failing to share, and I don't think you can connect dots that 
you can't get access to.
    Finally, the fifth item, we think we need to focus on 
establishing trusted information sharing relationships, 
particularly with the state, local, tribal organizations and 
private sector, rather than on continuous reorganizations of 
the manner in which we address this.
    Many state and local officials and the private sector feel 
disenfranchised, and the community of intelligence and law 
enforcement needs to treat them as partners.
    The final comment I would make has to do with 
responsibility and accountability. The law and executive order 
now gives responsibility for creating the ISE to the director 
of national intelligence, and this creates a particular problem 
for the Program Manager as he tries to reach out to the other 
components that are outside the DNI. He cannot really look to 
DNI resources for the law enforcement and for some of the other 
activities that he will be involved in, and that poses and 
interesting but certainly solvable problem.
    My conclusion is this is all about leadership. It is about 
a common vision, a vision of sharing information in order to 
protect the American public. It is about a common strategy, how 
to get there, and it is about accountability, and I would urge 
that this committee continue to review the progress. It is a 
very important area for the nation.
    And, once again, thank you very much for the opportunity to 
testify.
    [Information follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
    [The statement of Mr. Crowell follows:]

                Prepared Statement of William P. Crowell

     MARKLE TASK FORCE ON NATIONAL SECURITY IN THE INFORMATION AGE

    Mr. Chairman, Ranking Member, Honorable Members of the Committee, 
thank you for the invitation to appear today. I appreciate the 
opportunity to speak on progress made towards building an Information 
Sharing Environment.

Key Task Force Recommendations
    More than a year ago, the President issued Executive Orders to 
create an Information Sharing Environment (ISE) and in December 2004, 
Congress enacted the Intelligence Reform and Terrorism Prevention Act 
(IRTPA) of 2004 specifying the attributes of such an Information 
Sharing Environment. In particular, Section 1016 on Information Sharing 
tasks the President with creating an ``information sharing environment 
for the sharing of terrorism information in a manner consistent with 
national security and with applicable legal standards relating to 
privacy and civil liberties''. The IRTPA also designates the new 
position of Program Manager to plan and oversee the implementation of 
the ISE. Responsible for terrorism information sharing across the 
Federal government, the Program Manager is tasked to develop policies, 
rules, and procedures to govern the operation of the ISE in 
consultation with the Information Sharing Council. On October 25th, 
2005 the President signed Executive order 13388 creating the 
anticipated Information Sharing Council as required by the Act.
    While there has been some progress, we still have a long way to go 
to implement this law. The government-wide direction and accountability 
anticipated in both the Executive Orders and the Act should today be a 
major priority for the DNI. Without effective information sharing, 
information collection remains stovepiped and the importance of 
information held by different agencies or at different levels of 
government cannot be understood.

    My statement centers on the following five recommendations 
suggested by the Markle Task Force on National Security in the 
Information Age:
        <bullet> Re-establish a greater sense of urgency to share 
        information;
        <bullet> Empower the ISE Program Manager;
        <bullet> Translate law and executive orders into government-
        wide consistent guidelines;
        <bullet> Adopt a Risk Management Approach to Information 
        Sharing
        <bullet> Focus on establishing trusted information sharing 
        relationships, including those with state, local, tribal 
        organizations and the private sector, rather than structural 
        reorganization.

Perspective
    I have had the privilege to participate as member in the Task Force 
on National Security in the Information Age since its creation in March 
2001. The Task Force which is co-chaired by Zoe Baird and Jim 
Barksdale, is comprised of leading national security experts from the 
administrations of Presidents Carter, Reagan, Bush, Clinton and Bush, 
as well as widely recognized experts on technology and civil liberties, 
and was created to focus on how best to mobilize information and 
intelligence to improve security while protecting privacy and civil 
liberties.
    My own background includes having been a former Deputy Director of 
Operations and then Deputy Director of the National Security Agency 
(NSA) during the intelligence draw-downs of the early 1990's. After 
retiring from NSA I became CEO of a public company in Silicon Valley 
that was focused on securing cyberspace for industry and government 
customers. After my company was acquired in early 2003 I became an 
independent consultant in security and intelligence systems and serve 
on a variety of boards of technology companies. My remarks today are 
based on an outside look at progress made by government.
    The Markle Task Force has issued two reports: ``Protecting 
America's Freedom in the Information Age'' (October 2002) and 
``Creating a Trusted Information Network for Homeland Security'' 
(December 2003). Both have stressed the importance of creating a 
decentralized network of information sharing and analysis that achieves 
security while at the same time protects our civil liberties. We need 
to create an Information Sharing Environment that fundamentally changes 
the way we think about the business of national and homeland security. 
It requires clear and understandable rules and business practices on 
collection and sharing of data that is permissible and that which is 
prohibited. We believe that the Executive Branch and the Congress must 
both assume leadership for this task to succeed.

Creating an Information Sharing Environment
    On September 6th of this year, Co-Chairmen Jim Barksdale and Zoe 
Baird sent a letter to the President on behalf of the Task Force with 
our thoughts on the progress of the Information Sharing Environment 
(ISE). The letter is attached and is available on Markle's website 
(www.markle.org), as is the response from the White House. In addition 
Zoe Baird testified to the House Intelligence Subcommittee on Oversight 
at an Open Hearing on the Office of the Director of National 
Intelligence on October 19, 2005. My remarks today largely parallel and 
mirror the letter and subsequent testimony.

Timeline--Greater Sense of Urgency Needed
    Many first steps have been taken in the right direction, but much 
more needs to be done and the pace needs to be accelerated. We 
recognize the competing demands of an ongoing military engagement 
abroad and back-to-back catastrophic natural disasters, but getting 
information sharing right will pay dividends not only in preventing 
terrorist attacks, but in dealing with natural disasters as well. 
National and homeland security are based on many of the same concepts. 
It is time to stop applauding first steps and to raise our expectations 
for progress.
    The nation must move to implement an effective ISE with much 
greater urgency. There are many initiatives that can be taken 
immediately, and many policies that must be adopted to empower 
government officials and provide assurance of privacy protections. The 
same sense of urgency and focused attention exercised by our military 
and intelligence men and women in the battlefield must be applied to 
reforming how government agencies work together to understand and 
prevent the threats to our nation.
    Well-motivated people throughout the government are having a hard 
time adjusting to the new realities. In our letter to the President, we 
urged him to reiterate to Cabinet officers and all U.S. Government 
officers that they should interpret applicable laws and regulations to 
enable information sharing and not use old interpretations as an excuse 
to protect prior approaches. Any ambiguities as to authorities and 
lines of responsibility should be construed in favor of sharing and 
against turf battles. We still hear too many stories of departments and 
agencies using rigid interpretations of their authority prior to the 
change in the law in order to protect their turf. Constructive 
congressional oversight is needed here and the White House staff should 
itself take a more active role. The Intelligence Community should 
embrace rather than resist these changes and realize that change is not 
a rejection of the past, but a path to the future.
    This process will take continuous commitment and persistence from 
the leadership and all stakeholders. The issues are tough. We are aware 
of several individual agency initiatives that show good promise. Some 
examples include:
    --The FBI has developed the FBI Intelligence Information Report 
Dissemination System (FIDS); FBI officers are being trained and issuing 
more intelligence reports that are shared with the intelligence 
community;
    --The National Counterterrorism Center (NCTC) is enhancing 
collaboration across the foreignintelligence/domestic information 
divide that was so detrimental to our efforts before 9/11.

Program Manager for Information Sharing
    Now that the DNI has the administrative responsibility for the 
Program Manager, we believe he must assume the responsibility for the 
success of that office. The DNI must also recognize that the 
Information Sharing Environment extends beyond the Intelligence 
Community into the DHS, Federal law enforcement, and State and Local 
public safety arenas. Further, the Program Manager's office should 
immediately be staffed with the appropriate talent and given the 
resources needed to get the job done. More full-time government 
employees (FTE) positions must be provided. The Deputy Director of 
National Intelligence testified in July that they were striving to have 
the Program Manager's key leadership positions filled by mid-August. 
Obviously the priority response to Hurricane Katrina may have delayed 
the formation of the office, yet it is now mid-October and not much has 
changed.

New Guidelines and Policies
    High-level direction and sweeping change is needed to remove any 
pre 9/11 confusion about information sharing. We have emphasized the 
immediate need for clear, new government-wide policies and guidelines 
for dramatically increasing information sharing, while protecting our 
civil liberties and protecting sensitive information. Regrettably, any 
confusion created about how to reconcile new legislation and executive 
orders with prior laws governing agencies and departments have not been 
resolved by the Department of Justice, the DNI or other responsible 
parties designated by the President. A single set of policies across 
the government, with some additional rules depending on agency-specific 
missions, should end confusion and interagency battles about whose 
rules apply in particular situations.
    We believe the DNI's office must take responsibility for ensuring 
that the changes mandated in legislation and executive orders result in 
changes in practice. We assume that the President is looking to the DNI 
to exercise such responsibility.

    These new guidelines should at a minimum include:
        <bullet> Clear and enforceable rules and procedures that ensure 
        information is accessed, shared, handled and retained in a 
        manner that meets operational efficiency and security, while 
        protecting our nation's privacy and civil liberties.
        <bullet> Updated policies on the U.S. Persons rule: Since at 
        least 1981, access to and sharing of intelligence information 
        collected by U.S. Government agencies has been controlled by 
        two factors: (1) whether information was collected within the 
        territory of the United States or overseas; and (2) whether 
        information involved a U.S. Person (U.S. Citizen or Permanent 
        Resident Alien). These distinctions remain relevant for the 
        collection of intelligence, but we believe they should no 
        longer be the basis for controlling access to and sharing of 
        intelligence information lawfully collected by the government. 
        While there is broad recognition that these rules must change 
        in the post 9/11 world, there also is justifiable concern that 
        they be replaced with easily understandable rules that serve 
        the same goal of protecting our civil liberties. In the next 
        several months, our Task Force will propose a new approach to 
        these issues that we believe can initiate a necessary dialogue 
        about how to move beyond these outmoded rules while enhancing 
        both civil liberties and operational success.
        <bullet> New classification procedures: Executive Order 13356 
        specified that originator control (ORCON) be used very 
        judiciously. Information sharing should not be impeded because 
        of excessive classification rules that classify information 
        according to sensitive intelligence collection sources and 
        methods even when it could have been acquired by less sensitive 
        means. Furthermore, we must work to extinguish the belief that 
        those who collect information own it. The President clearly 
        stated that standards be developed ``requiring terrorism 
        information be shared free of originator controls, including, 
        for example, controls requiring the consent of the originating 
        agency prior to the dissemination of the information outside 
        any agency to which it has been made available, to the maximum 
        extent permitted. . . .''
        <bullet> Technical and organization mechanisms for policy 
        compliance, oversight, and timely dispute resolution are needed 
        to minimize and adjudicate failures to share information. There 
        should also be a mechanism to turn disputes into policy. This 
        will reduce risk aversion by government officials who might be 
        concerned about the personal impact of wrong decisions in a new 
        environment.
        <bullet> A comprehensive and independent assessment of the 
        value being created by the Information Sharing Environment.

A Risk Management Approach to Information Sharing
    We realize that many in the Intelligence Community have concerns 
that the increased focus on information sharing creates a greater risk 
of damaging security breaches. What the Task Force has recommended--and 
I believe is critical--is that a distributed information sharing system 
like the ISE contain policy, procedural, and technical protections 
including robust access controls that reduce the risk of unwanted 
disclosure and promote trust. We are not advocating that all 
information be shared with everyone; we suggest that information must 
be accessible to those users who need it to successfully perform their 
assigned missions and are authorized to see it. This will require 
leadership by the DNI to determine legitimate user needs and innovative 
cross-agency teams of people working problems together.
    Sophisticated technology exists to secure and protect information 
and we must take full advantage of it. However, the government must 
recognize that perfect information security is not possible and that 
the costs of seeking it are too high. There are security risks not only 
from information falling into the wrong hands, but also from 
information failing to find its way into the right hands. The risk of 
release and sharing should be balanced with the risk of not sharing. 
The government's current approach to protecting classified information 
does not recognize this risk from failing to share. As wrenching as it 
is, the government must move to a risk management approach to 
protecting classified information that balances the risks of failing to 
connect critical information and adopts flexible and creative 
mechanisms for mitigating risks on both sides. You cannot connect dots 
that you cannot access.
Privacy and Civil Liberties
    As change in the intelligence community is being furthered, privacy 
and civil liberty interests must be considered consistently. Both the 
Congress and the Executive Branch must demonstrate that privacy is a 
priority. The Chairman and Vice Chairman of the Privacy and Civil 
Liberties Oversight Board in the Executive Office of the President have 
not been confirmed and the Board has never met. We hope the members 
have begun to be briefed so that, if confirmed, they are ready to 
assume their responsibilities immediately. It is critical that these 
oversight mechanisms established by law and executive order become 
operational immediately and get engaged as policies and guidelines are 
developed.
    Furthermore, the position of the Chief Privacy Officer at the 
Department of Homeland Security must be filled again quickly.

Acquisition Procedures for New Information Technology
    We cannot afford to lose the innovation race to the terrorists who 
are aggressively using technology like the Internet to connect and 
train recruits as well as plan and execute operations. Our government 
must be much more flexible and adaptive, taking full advantage of new 
technologies as they become available.
    A Request for Information (RFI) was issued recently by the Program 
Manager seeking vendors to provide Electronic Directory Services (EDS) 
to ``enable authorized participants to locate and access information, 
organizations, services and personnel in support of their respective 
mission requirements for terrorism information.'' We have recommended 
that a directory service is a critical element of an effective 
Information Sharing Environment, but it is not clear the Program 
Manager has the resources or authority to implement such a system. The 
technology is available to get this done, but it must be introduced 
quickly using an incremental approach. Attempting to seek a perfect 
solution will paralyze the effort--just as we have seen in other 
programs.

State, local, tribal and private sector
    Our last concern has to do with an aspect of information sharing 
where very little progress has been made. Yes, it is true that more 
intelligence information is being shared with state and local officials 
and even with the private sector. However, the nature of the terrorist 
threat requires that we harness all resources available and, within 
guidelines that protect privacy and civil liberties, we develop two-way 
engagement with key organizations outside the federal government. 
Because terrorists are presumably living and working among us, some of 
the best intelligence may come from non-traditional and unclassified 
sources.
    Meetings with state and local officials and the private sector have 
led us to believe that the federal government has not yet realized the 
value of information identified by state and local entities. A system 
to integrate this information has not been developed. Much more 
attention must be paid to this gap, because we as a government are 
ignoring a critical component of national security. This must be done 
jointly with the Department of Homeland Security because it is partly 
the reason why that department was created. We know this is one of the 
toughest challenges facing the federal government, but it must be done.

Recommendations
    The Task Force will be announcing some proposals over the next 
months, but we offer a few specific recommendations to the Committee as 
you consider priority actions. These recommendations are in addition to 
the underlying point that the administration must get on with fully 
establishing and empowering the Program Manager.
        <bullet> Government-wide guidelines to promote information 
        sharing as called for in the Act and Executive Order should be 
        established as soon as possible;
        <bullet> The Program Manager should act quickly on the RFI 
        issued to establish electronic directory services; this is a 
        critical step toward better information sharing;
        <bullet> Working with the Congress, the Executive branch should 
        support the Program Manager in sponsoring some pilots which 
        demonstrate information sharing between federal agencies, 
        state, local, tribal and the private sector;
        <bullet> Establish a panel of experts, primarily from industry, 
        to review and advise the program manager, DNI, DoD, DHS, and 
        Justice on architecture and system design (particularly 
        important given the number of failed IT and information sharing 
        programs between those four organizations);
        <bullet> Congress should move quickly to act on key positions 
        that are pending confirmation, and if they are not confirmed 
        the President must quickly nominate others (the Privacy and 
        Civil Liberties Oversight Board Chairman and Vice-Chairman have 
        not been confirmed, and neither has a General Counsel to the 
        DNI, a particularly important position given the legal barriers 
        and confusion cited by many as preventing implementation of the 
        ISE);

Conclusion
    Our nation has now reorganized the intelligence community as called 
for in many earlier reports. For this to address the significant 
challenges of the future, we must train government employees to work in 
new ways, develop our civil liberties guidance, sponsor research on new 
technologies and methods, and create systems that manage information in 
smarter and more cost-effective ways, while providing real security 
improvements and accountability. Any future intelligence failures will 
not rightly be blamed on legal constraints that prevent sensible 
information collection and sharing. The authorities to collect and 
share information exist; we must thoughtfully exercise them.
    Finally, we must work toward improving our national security 
without eroding privacy and civil liberties. Our task force has 
expressed concern that if another major attack were to take place on 
our homeland, the immediate reaction could cause the pendulum to swing 
toward measures that impinge on our privacy and civil liberties in ways 
in which none of us would support given time for thoughtful 
consideration and debate. We have the opportunity now and we should 
seize it.
    Thank you again for the invitation to appear before you, and I 
welcome any questions you may have.

    Mr. Simmons. Thank you both for your testimony.
    Normally, I would take my 5 minutes of questions at this 
point, but I see the distinguished vice chairman of the full 
committee has come in, and I suspect that it would be 
intelligent to extend to him the courtesy of taking my time, 
because I know how busy it is.
    So the chairman yields to the distinguished vice chairman, 
the gentleman from Pennsylvania.
    Mr. Weldon. I thank my good friend and chairman for 
yielding and for his leadership, along with the distinguished 
ranking member.
    I thank our witnesses for coming in today and would like to 
say that this hearing is perhaps one of the most important 
subjects that we have to focus on relative to protecting the 
homeland from any emerging threats. And it is an issue that is 
not new to this Congress.
    It was this Congress that created the Gilmore Commission 
and the four reports of the Gilmore Commission, chaired by 
former Governor Jim Gilmore, that issued three reports before 
9/11. And in each of those reports, you will find references to 
this very issue.
    So the Congress was in fact on the lead in the need for 
information sharing when it comes to information sharing, both 
vertically and horizontally, and the need to tear down the 
firewalls with the stovepipes of the 33 classified systems 
managed by 15 different agencies.
    In fact, it as the Congress that had language in three 
successive bills, in 1999, 2000, and 2001, that mandated, at 
least from DOD's standpoint, where I sit as the vice chairman, 
that we push toward integration. Unfortunately, on November 4 
of 1999, in spite of John Hamre encouraging such an initiative 
to create a national collaborative environment, the CIA and the 
FBI, after attending a meeting with John Hamre in my office, 
said publicly, ``We don't need that capability.''
    Well, we have now learned some other important information 
that troubles me, and that is why I am here, Mr. Chairman, 
because we can't move forward unless we understand the lessons 
of the past. And I wish I didn't have to come to this hearing 
for this purpose, but I am here for this purpose, because I 
have not yet received any responses.
    Approximately June of this year, I learned the details of a 
top secret military program called, ``Able Danger.'' My first 
contact was to call the staff director of the 9/11 Discourse 
Project to ask if they had looked at ``Able Danger'' because 
there was no mention of it at all, even a footnote in the 9/11 
Commission report. My chief of staff got the response the next 
day that, ``Well, we looked at it, but we decided not to go 
down that route,'' and they were the terms that were used, 
``not to go down that route.''
    I then met with Tim Roemer a week later and I said, ``Tim, 
were you ever briefed on Able Danger?'' He said, ``No, Curt, 
never heard of it, never briefed.'' I said, ``A top secret 
program that was ordered by the chairman of the Joint Chiefs of 
Staff, under the command of General Schoomacher at SOCOM and 
you were never briefed, and it was specifically against al-
Qa'ida?'' He said, ``Never.''
    So I called John Lehman and had lunch with him, and John 
Lehman told me at lunch he had never been briefed either. And 
when I told him the details of ``Able Danger,'' he was livid. I 
said, ``What do I do, John?'' He said, ``You have got to pursue 
it.''
    So I went to the floor of the House and did a 45-minute 
speech. Of course, nobody pays attention to 45-minute speeches. 
During the month of July, I went to our committee chairs--Armed 
Services, Homeland Security, Intelligence, Oversight of 
Appropriations--and The New York Times picked the story up the 
first week of August with a front page story above the fold on 
Tuesday.
    The response by the 9/11 Commission was that they denied 
that there was ever a briefing on ``Able Danger.'' The New York 
Times ran a story the second day. And they said, ``Well, there 
was a briefing but there was never a mention of Mohamed Atta.'' 
The New York Times ran a story a third day. The 9/11 Commission 
said, ``Well, there was a brief, and, yes, Mohamed Atta's name 
was mentioned, but it wasn't until July, one week before our 
report was done, and we determined it wasn't historically 
significant.'' In fact, they used the terms, ``historically 
insignificant.''
    Mr. Chairman, we have now determined, not through 9/11 
Commission work, and I supported the 9/11 Commission with my 
vote and my voice, at least five professional employees of DOD 
have publicly stated that Mohamed Atta was identified before 9/
11. And it wasn't just done by the Army's legal.
    We now know, thanks to no help of the 9/11 Commission, that 
there was a separate massive data mining effort that was 
conducted down in Garland, Texas of the officers of the 
Raytheon Corporation, and guess who, Mr. Chairman, the head of 
that was? The 9/11 Commission doesn't have a clue because they 
never interviewed the guy. It was Sam Johnson's son, one of 
most dedicated members. And Sam Johnson's son, Dr. Bob Johnson, 
is now ready to testify, along with the other military folks, 
on the record, that he too identified Mohamed Atta before 9/11.
    Now, we have two separate data mining operations that are 
ready to come public and testify. They both identified Mohamed 
Atta by name and in one case by photo before 9/11.
    Now, this is not about a chart, as people have tried to 
say. In fact, we know there was 2.5 terabytes of data collected 
about al-Qa'ida, specifically ordered by the chairman of the 
Joint Chiefs of Staff. Now, 2.5 terabytes of data is equal to 
one-fourth of all the printed material in the Library of 
Congress. That is historically insignificant, I might add.
    And now we also know on the record, and the Senate 
Judiciary Committee has taken these statements and I have been 
there witnessing it, that there was an attempt made in 
September of 2000 to transfer information about the Brooklyn 
cell of al-Qa'ida to the FBI three times. The FBI employee who 
set up those meetings up will state that under oath, which he 
did to the Senate Judiciary Committee.
    And you know what? Those meetings were canceled. Not one 
mention of this in the 9/11 Commission report. We now know that 
there was a 3-hour briefing providing for the chairman of the 
Joint Chiefs of Staff in January of 2001.
    And now where do we see the response? We are here to talk 
about sharing information and public knowledge and 
accountability. We see this administration and the 9/11 
Commission not willing to talk about it on the record.
    Now, that is outrageous, Mr. Chairman, and I am not here to 
criticize just any Democrat, I am here to criticize this 
administration, which I supported. They have gagged the 
witnesses that will come forward.
    Now, I sent a letter to the 9/11 Commission on August 10. I 
have yet to receive a response. This is November 8. Now, I got 
a letter congratulating me for my work on the frequency 
spectrum allocation issue but not a response to my letter about 
what is in fact the most important information prior to 9/11 
that Louis Freeh, Louis Freeh, Mr. Chairman, on national TV 2 
weeks ago, when he was questioned by Tim Russert, said, ``That 
is the kind of tactical intelligence,'' meaning ``Able 
Danger,'' that would make a difference in stopping a hijacking. 
We are very interested in what the 9/11 Commission didn't do 
with respect to ``Able Danger.'' And that is Louis Freeh, FBI 
director when 9/11 occurred.
    Mr. Chairman, there is something wrong here. There is 
something wrong. When we are supposed to be getting the facts 
for the 3,000 families, and I was with the families up in 
Harvard University with my good friend Jane Harman just a few 
weeks ago and they pleaded with me to get the information.
    When we now know that there was information 2 days before 
the attack on the USS Cole that could have stopped the crew 
from the USS Cole from losing 17 of their sailors, and I had 
the captain of that ship in, Commander Kirk Lippold 2 weeks 
ago, who said, ``If I would have had the information that they 
had, I wouldn't have taken my ship into port.''
    So I say, Mr. Chairman, ``What is going on here?'' We are 
talking about sharing information. Am I hearing it that no one 
really wants to share information? We want to spin things? Let 
the truth come out. Right now, the Defense Intelligence Agency 
is destroying the career of Lieutenant Colonel Tony Shaffer, 
and I am not going to allow that to happen. I haven't heard a 
peep out of the 9/11 Commission to ask for more information, 
not a response to my letter.
    Mr. Chairman, I am a little bit upset, because we don't 
know the information about what happened prior to 9/11. This is 
not about a chart of one person. It is about 2.5 terabytes of 
data, collected by two separate data banks, neither of whom 
were talked to by the 9/11 Commission. It looks to me like a 
cover-up, Mr. Chairman. That is what it looks like.
    And so I have two questions.
    Mr. Hamilton, when can I expect a response to my letter of 
August 10, which was sent to you and Mr. Keane? And, number 
two, will you join in calling for a full and open hearing to 
allow all ``Able Danger'' people, and that is 6 individuals--
there weren't 80 involved, there were 20 total, 6 are willing 
to come forward--are you willing to call for a public hearing, 
allowing them all to testify and also to have Dieter Snell 
testify under oath about his interview of Scott Philpot in July 
of 2004?
    Thank you.
    Mr. Hamilton. Thank you very much, Mr. Weldon. First of 
all, with regard to the response, we are operating, as you may 
know, with a very skeleton staff. We no longer have the 80-some 
staff members that we had under the 9/11 Commission. We will 
respond to you, we should, and we will try to get a response 
promptly to you.
    Secondly, we understand on the Commission that we were 
writing the first draft of history, if you would. We understand 
that information will be coming forth probably for the next 
century about what happened on 9/11, and we, in the Commission, 
must remain open to new information.
    Now, let me tell you why we did what we did. The Commission 
based its report, first, on facts that were obtained by, 
supported by documentary evidence and, second, by witnesses who 
had direct firsthand knowledge of documents they produced and 
the events they described. Those persons that now make the 
claim about Atta's name on the chart cannot produce the chart. 
They did not do the analysis and they cannot reproduce the 
analysis.
    Many serious questions have to be addressed to these 
people, and I think, so far as I personally am concerned, Mr. 
Weldon, I can't speak for all commissioners, I am perfectly 
willing to support a hearing with regard to these witnesses, 
because I think there are serious questions that need to be 
addressed to them.
    We interviewed General Schoomacher. He was the Commander of 
the Special Operations Command at the time ``Able Danger'' was 
created. We interviewed General Hugh Shelton, who was chairman 
of the Joint Chiefs, Admiral Scott Frye, General Gregory 
Newbold, all successive directors of operations for the Joint 
Staff. We interviewed Brian Sheridan, the assistant secretary 
for special operations in low intensity conflict during the 
period that ``Able Danger'' was in existence.
    We also interviewed several other senior and mid-level 
managers of the Special Operations and Low Intensity Conflict 
Program.
    Despite direct questions for any information relevant to 
the 9/11 attacks, none of them mentioned such a chart. They 
mention nothing about identifying Mohamed Atta, even in 
response to questions about the ``Able Danger'' Program.
    We interviewed Mr. Stephen Hadley for 3 hours. He responded 
to questions from the Joint Congressional Inquiry. He mentioned 
nothing about that chart, mentioned nothing about the name of 
Mohammed Atta (ph being on the chart.
    We interviewed his boss at the time, Condoleezza Rice, for 
over 4 hours. She said nothing about a chart and mentioned 
nothing about the name of Mohamed Atta on the chart.
    We interviewed her boss, President Bush, for nearly 3 
hours. Neither he nor the vice president said anything about a 
chart or the name of Mohamed Atta on a chart. The White House 
has not confirmed the existence of the chart. There is, so far 
as I know, no evidence to document that such a chart ever 
existed.
    Now, one other point I would make here, even if everything 
that you say is correct about Mohamed Atta, I don't think it 
would change the Commission's recommendations in any way. We 
documented in great detail many examples of the failure to 
share information, and we made that recommendation across the 
board, and action on those recommendations, we believe, is 
still necessary.
    Now, I might point out that you, Mr. Weldon, in your book 
wrote, ``On September 25, 2001, just 2 weeks after 9/11, I met 
in the White House with Stephen Hadley, the deputy national 
security advisor to the president. I presented him with a two 
by three chart I had been given in the aftermath of 9/11. The 
chart was developed in 1999 as part of a Defense Department 
initiative dubbed, ``Able Danger.'' It diagramed the 
affiliations of al-Qa'ida and showed Mohamed Atta and the 
infamous Brooklyn cell.'' Hadley's response was, ``I have to 
show this to the big man.''
    We have not yet seen that chart, and we are open to 
receiving it.
    Mr. Simmons. Recovering my time, the chairman now 
recognizes the ranking member.
    Ms. Lofgren. Thank you, Mr. Chairman, and I would like to 
get back to questions on the testimony.
    First, I would like to thank you both for being here, 
obviously, and for all that you do, and I would like to ask Mr. 
Crowell a couple of quick questions.
    First, the Markle Foundation has called electronic 
directory services a critical step toward better information 
sharing, and, as you have referenced in your comments, it is 
important, both in terms of outlining what we need to collect 
but also what we don't need to collect, in terms of privacy and 
civil liberties.
    What would be your best advice to Mr. Russack about how to 
establish the electronic directory services? I don't think it 
exists yet, unless I am wrong.
    Mr. Crowell. It doesn't exist yet. I believe he issued an 
RFI, a Request For Information, to industry regarding directory 
services.
    What the Markle Foundation postulated was the need for 
directory services to be the pointers to information wherever 
it resided for several reasons. One was for policy reasons, in 
order to preserve the policy about how the information was used 
with the information when it actually got transferred. So that 
if there were privacy implications or if there were 
restrictions on the use, they would be part of the record that 
gets transferred.
    The second was for freshness. One of the problems with 
transferring information among stovepipes in the U.S. federal 
government, in particular, is that the information has no--
there is no way for the information to get updated. So if 
information is transferred that is either wrong or that is 
later changed, those changes don't follow the transfer of the 
information to other agencies.
    But by using directory services and pointers to the 
information, as opposed to actually moving the information 
wholesale, there is an opportunity to, with technology, solve 
this problem of keeping the information accurate, fresh and 
updated by the people who actually have that responsibility.
    Ms. Lofgren. And also to make sure only those who need--
that people get only what they are permitted to get.
    Mr. Crowell. That is exactly right. And also that you 
control things like can it be printed, can it be sent to 
further distribution lists and so on, which would go a long way 
toward increasing the trust that people have in the system that 
is going to be used to share.
    Ms. Lofgren. But do you envision--just thinking about this, 
and maybe this is incorrect--that the implementation of such a 
system might actually solve the need or go a long way toward 
solving the need of a government-wide consistent guidelines 
that you referenced in your testimony?
    Mr. Crowell. Well, it certainly would become a facilitator 
for moving consistent guidelines across organizational borders. 
It won't remove the need for someone to sit down and decide 
what some of those guidelines will be.
    Ms. Lofgren. Let me ask, if I could, just two quick 
questions that you mentioned in your testimony. One, the need 
for a dispute resolution mechanism as well as the lack of use 
of the streamlined systems we have for IT acquisition. We are 
woefully behind in very many parts of the government in our IT 
area.
    Do you have advice for this committee and how we might 
promote changes in those two areas?
    Mr. Crowell. Well, on the first one, dispute resolution, 
the importance of that, particularly in the beginning of a 
change in the culture, is to try and move the inevitable 
disputes that will occur about whether information is too 
classified to be sent to particular users or whether it can be 
declassified or sanitized, to move those disputes quickly up to 
policy makers who in turn then can move the disputed policies 
back down as new policies and incorporate the disputes into the 
evolving policies and guidelines that would become important.
    With regard to IT modernization, the best way I can phrase 
that is I won't mention the particular agency but I know of one 
agency where the analysts are prohibited from going home and 
doing any work from home, but they have better tools at home--
    Ms. Lofgren. Right.
    Mr. Crowell. --than they do at work. That is a pathetic 
situation. I mean, at home, I have access to blogs, to 
databases, to all kinds of information. Every day I get a 
terrorism report that is several megabytes in size from a 
private source that isn't even associated with the government, 
and I can use that information to review what is happening 
worldwide, with a little Googling, on a very positive basis.
    And that kind of technology is not expensive, but it is not 
being deployed very rapidly in some cases because of security 
concerns and security constraints and other cases, just because 
it opens up the process too much.
    Ms. Lofgren. Let me follow up with Mr. Hamilton on that 
point. It has been a frustration to me. I have been on the 
Judiciary Committee for 11 years and we have yet to have an 
oversight hearing on the FBI. Thinking about just the 
technology aspect of the FBI and the Trilogy Program, which we 
found out in March of this year, after $157 million, basically 
was scrapped.
    As far as I know, and, Mr. Hamilton, you may know from your 
service on the 9/11 Commission, we still don't have a 
comprehensive or working solution for sharing information 
internally within the FBI.
    And my question is, how are they going to be partners in 
information sharing across agencies as well as out into our 
private sector and local and state government allies if they 
can't even share information internally? Can you give us any 
information on that?
    Maybe we should have a hearing on that since Judiciary 
apparently doesn't want to exert their jurisdiction. We have 
concurrent and might be able to move this forward.
    Maybe the Commission didn't go too heavily into that, but 
if you can give us an wisdom, it would be much appreciated.
    Mr. Hamilton. Congressman Lofgren, I, among other things, 
now serve on an Advisory Board to the director of the FBI, and 
they are, I believe, finally, seized this issue, and they 
recognize the failure of their past efforts, I might say costly 
failure, but I do believe that they are now trying very hard to 
improve the information systems within the FBI.
    Now, I don't think they are there yet, by a long shot. They 
have brought in a lot of highly trained technical people to 
deal with this problem, and I think there is a very strong 
emphasis on it now to improve it.
    So your oversight here is terribly important because of all 
the changes that are necessary in the FBI, and you appreciate 
the director's trying to change the whole culture of the 
institution, from law enforcement to--
    Ms. Lofgren. Well, I am an admirer, actually, of the 
director, but I have to note that we have got a problem here.
    Mr. Hamilton. Well, the question is, can he do it, and can 
he change the culture, and I have no doubt at all about, number 
one, his ability, nor, number two, his intent. He is a top 
flight person, but it is a formidable challenge, and I just 
think you and all of us need to bear down on the FBI, make sure 
we are fully supportive of what they are trying to do, because 
that change is critical.
    If you change the FBI's focus from law enforcement to 
prevention of terrorism, what that means is that intelligence 
becomes the area of the FBI's work that drives the entire FBI, 
because it is intelligence that tells you about possible 
terrorist activity. So the intelligence effort and the 
information sharing and the information technology involved in 
that intelligence effort is just crucial in order for the FBI 
to carry out its new function well.
    Ms. Lofgren. I see my time has expired.
    Thank you, Mr. Chairman.
    Mr. Simmons. Thank you.
    The chair now recognizes the gentleman from Pennsylvania 
with the hope that he can yield me some of his time.
    Mr. Weldon. I will, Mr. Chairman. Thank you. I just want to 
respond to some of Mr. Hamilton's comments, just for the 
record. And, again, we are trying to spin instead of getting to 
the facts.
    Mr. Hamilton, I have had respect for you, we served 
together for a number of years. I have never criticized you 
publicly. But I am absolutely outraged at what is happening 
here in the lack of aggressiveness in wanting to get to the 
bottom of this story.
    You brought up the fact, alluding that somehow Steve Hadley 
didn't acknowledge. Well, why don't you talk to Chairman Dan 
Burton who chaired the Government Operations Oversight 
Committee, who went with me to that meeting? Why don't you talk 
to Chris Shays, the chairman of the Government Operations 
Oversight Committee for National Security, who went with me to 
that meeting? There were three of us in the room with Hadley, 
not one.
    If you have a problem with what Hadley said, you ought to--
he told me he was misquoted. The fact was--and it is not about 
a chart. Don't try to spin this about a chart. We have a 23-
year Navy veteran who has risked his entire career to tell the 
truth, that in January of 2000 he identified Mohamed Atta and 
three terrorists. He had to seek you out to give you that 
information in July of 2004, and this was the response of the 
person who debriefed him who I want to put under oath, Dieter 
Snell.
    After he was questioned, he said to--and this is a direct 
quote from Commander Scott Philpot. He said, after Scott gave 
him the information, Dieter Snell said, ``What do you want us 
to do with this information? We go to print in 10 days.'' Is 
that the legacy of the 9/11 Commission, that we go to print in 
10 days; therefore, we don't even mention ``Able Danger'' as a 
footnote in your book? This was not ordered by some Johnny Come 
Lately off the street.
    And you say you interviewed Schoomacher, you interviewed--
you didn't question him about ``Able Danger'' in detail. I 
talked to them. You didn't question the people that were 
involved in the operation of ``Able Danger.'' Talk to Scott 
Philpot, as I have 20 times, who has risked his career. You 
have never talked to him personally. You have never talked to 
Tony Shaffer personally, who is having his career destroyed 
right now.
    You didn't play this kind of role when you were in 
Congress. You were aggressive at oversight. And I am not going 
to sit by while a man's career is destroyed because we don't 
want them to be able to tell the truth. And it is going to 
embarrass this administration, the Bush administration, but I 
don't care.
    That was the job of the 9/11 Commission. I voted for it, I 
supported it. I tried to meet with you all. Tom Keane gave me a 
5-minute phone call. I hand delivered information at the 
hearing when George Tenet was at the witness stand and the 
questions were never asked. We gave a packet of follow up. You 
never proceeded to interview me. It is not about me. It is 
about the 3,000 families that had their lives ruined and the 17 
sailors on the Cole.
    We are going to get to the bottom of this, Lee, I will 
guarantee you, and there is going to be egg on the faces of 
people when the truth comes out, because in the end, the truth 
provides the justice.
    I yield you the rest of my time.
    Mr. Hamilton. Mr. Chairman, I think I should have the 
opportunity to respond to that.
    Mr. Simmons. Absolutely.
    Mr. Hamilton. Mr. Weldon, we want that truth to come out, 
and I don't wan to try to block the truth, and I will stand 
with you to try to get the truth out. Now, we are not trying to 
spin the chart. Where--
    Mr. Weldon. It is not about a chart.
    Mr. Hamilton. Where is the chart?
    Mr. Weldon. The chart was destroyed, I guess, by Hadley. It 
is not about a chart. It never was about a chart.
    Mr. Hamilton. Well, it was in your book.
    Mr. Weldon. My book mentions it in one sentence.
    Mr. Simmons. Would the gentleman--
    Mr. Hamilton. And when those people met with our 
investigators in Afghanistan, they talked about a chart with 
Mohamed Atta's name on it.
    Mr. Weldon. Come to my office, I will show you a chart.
    Mr. Hamilton. With Mohamed Atta's name on it, I would like 
to do that. Look, that is a very--
    Mr. Simmons. Reclaiming my time, the gentleman at the 
witness table is recognized by the chair.
    Mr. Hamilton. Well, I am not sure it benefits us here to go 
further, but I will say that that chart is an enormously 
important piece of information.
    We did not have any information, Mr. Weldon, that prior to 
9/11 that the government knew the name of Mohamed Atta. Now, 
when our investigators talked to your people--well, the people 
you have identified today, when they talked to those people in 
Afghanistan, they said there was a chart with Mohamed Atta's 
name on it.
    Now, at that point in the investigation, which this was in 
the year 2003, we certainly knew the name of Mohamed Atta, and 
anybody in a meeting that heard the name of Mohamed Atta, that 
would have been like ringing a fire bell. None of our three 
investigators, the White House lawyer did not recall a chart, 
did not recall mention of Mohamed Atta.
    Now, if the chart exists, let's see it, and we will give it 
due weight.
    And let me join you in saying that we don't want to destroy 
anybody's career. We want to get the information. Just give us 
the documentary information.
    Mr. Simmons. The chair now recognizes the gentlelady from 
Texas, Ms. Jackson-Lee.
    Ms. Jackson-Lee. I thank the chairman very much.
    And I apologize, was delayed with some other meetings, Mr. 
Hamilton and Mr. Crowell, and would have gotten here sooner if 
I had known how much excitement you all were having in this 
hearing.
    [Laughter.]
    But let me thank you for your service and the previous 
witness who is now going to be our new Manager of Intelligence 
and important, I think, position in our Department.
    If I might, I will make a statement that will look for 
solutions, and that is that I do think that we are still making 
a journey toward securing the homeland. There is much debate as 
to whether or not we are any more secure today than we were on 
September 10. I think the 9/11 Commission report has been a 
great road map and directive, and we have put in place many 
very positive aspects, and I think that puts us in a step in 
the right direction.
    But I have several points that I would like to bring up, 
and I would engage Mr. Crowell as well on these questions.
    First of all, with respect to the Information Sharing 
Manager, do you think that we have an effective position that 
can generate intelligence down to our federal, state and local 
sharing, meaning that we can generate or translate information 
down into the state and local jurisdictions and whether they 
can translate? Do we have an appropriate vehicle for that and 
they can translate information to us?
    Use as a backdrop, and I don't want to be coy, but use as a 
backdrop the recent incident with New York. I have a great 
respect for Commissioner Kelly, I know him well, but I am 
hoping that it was not tainted by politics and local elections. 
Did we do that right and is that an example of sharing 
information in the right way? If you are taking notes, I would 
appreciate it, because I would like to be able to--on the 
questions, I would like to be able to finish my questions and 
then yield to both of you.
    In particular, Mr. Hamilton, I know your great work, and we 
worked very closely, so many of us, around the 9/11 report. I 
was pleased to have been on the Select Committee, the committee 
before this one on Homeland Security and sort of worked closely 
with the work that you all were doing.
    But maybe we should have hearings. Ms. Lofgren has said 
something very insightful and also indicting and that is that 
there have not been oversight hearings over the FBI. I know the 
chairman of this committee is very astute about these issues. 
And maybe we should have, moving aside the recent occurrences 
of politics and in and out indictments and other types of 
activities.
    I have always said that the American people need to have 
the ultimate truth. I think it would be appropriate to hold 
hearings anew--and they have always said, ``Well, they belong 
in the Intelligence Committee;'' I think it is appropriate in 
the Homeland Security Committee--on the trail of intelligence 
that led us to the state of war.
    The reason why I say that is it is more woven around the 
question of terrorism. And, therefore, if it is woven around 
that question, then that is the jurisdiction of the Homeland 
Security. Let us track the trail and all the pieces that might 
not have been addressed by the 9/11 Commission, your task was 
monumental, and I think the work that you did we will be 
forever grateful that we got a road map. But we are now seeing 
the missing links.
    Should we not convene hearings, oversight hearings, 
transparent hearings that will engage representatives from the 
White House, engage the proponents of information to find out 
how the trail of information either gave us information about 
those terrorists that might be engaged or did not?
    And I yield to the gentleman for what was a very lengthy 
questioning, but I think you can detail about three of them. 
There are about three questions. One happened to be longer than 
the others.
    Mr. Hamilton. Let me begin to respond, and then Mr. Crowell 
will pick it up.
    First of all, with regard to Mr. Russack's job as the 
Program Manager, it has been said several times here it is an 
enormously important job. He becomes now the key official in 
implementing information sharing, which is the key aspect of 
better intelligence with regard to counterterrorism. There is 
nothing this committee can do that would be more important, I 
believe, than to stay on top of the progress that he is making 
and maybe not making and try to provide guidance to him.
    And to the extent that you have hearings to that effect, 
then I would certainly applaud them.
    You have to make sure he has the authority that he needs, 
and if he doesn't have it, you should give it to him. You have 
to make sure he has the resources and the personnel that he 
needs, and if he doesn't have it, you should make sure he has 
it. And you have to keep your focus on this particular office, 
I believe, to see that if functions. And if this office does 
not function, then your counterterrorism effort is going to be 
severely hampered.
    Now, with regard to the New York situation, I know there 
has been some controversy about that. The positive side of it 
is that information was shared from the DHS to the city of New 
York. And on October 6, the New York Police Department reacted 
to information that came to them from the FBI, and that 
information suggested that their system, their transportation 
was at risk of being attacked in the next few days.
    The DHS gave a different interpretation to that information 
than the New York officials did, but keep in mind they have got 
very different responsibilities. If you are the mayor of that 
city and you have this information coming to you, you are going 
to act in such a way that will protect the city.
    You also have to keep in mind that the information here 
keeps developing. You don't get a finished product at 10 
o'clock in the morning. What you get is an initial intelligence 
assessment, which is refined over a period of many hours, but 
the mayor has to act right away if he is going to protect the 
system. So you would have a very different perspective here.
    I believe that the New York mayor and the New York Police 
Department acted responsibly based on the information that was 
given to them, but it is a dynamic situation, and I can 
understand why the DHS people had a different interpretation of 
the information than the mayor did.
    All of this has to say is that we have got to work harder 
to get this right.
    Ms. Jackson-Lee. That is right.
    Mr. Hamilton. So that there is a consistent message flowing 
from Washington to the local officials as the situation 
develops. And we all know it is a crisis situation, and it is 
very, very hard to do.
    Ms. Jackson-Lee. Would you just--I know he has to answer--
would you also comment on further hearings to sort of determine 
whether or not we had some faulty intelligence leading us to 
where we were in terms of the war? And not so much the war but 
interpreting whether there were terrorist threats that would 
lead us to go to war. Whether further hearings would be 
appropriate.
    Mr. Hamilton. That is really outside the mandate of the 9/
11 Commission. We did not look at the Iraq war. We acted on the 
basis of the statutory mandate you gave us, and that told us to 
do two things: To tell the story of 9/11 as accurately as we 
could, and, number two, to make recommendations to the American 
people on how to better protect themselves from a terrorist 
attack. We did not have the statutory authority to look into 
the questions of the war. That is an all together different?
    Ms. Jackson-Lee. If you had it, you obviously would have 
pursued it. If we have it, do you think we should pursue it?
    Mr. Hamilton. That is a judgment you have to make. And as a 
person testifying on behalf of the 9/11 Commission, I can't 
really comment on that.
    Ms. Jackson-Lee. And I appreciate your consistency with 
your testimony.
    Mr. Crowell?
    Mr. Crowell. I certainly agree with all of the comments 
that Mr. Hamilton made with regard to the information sharing 
environment. I would add, though, that his job is not really 
framed around the notion that he will have a responsibility for 
interpreting or moving information form any of the players--
federal, state, local--but, rather, that he will assist in the 
development of the policies, the guidelines, technology, the 
systems, the training, the environment, if you will, that will 
allow that to happen within the agencies that have that 
responsibility today.
    In that regard, without the necessary resources and without 
the necessary oversight to see that he is getting the resources 
and doing the job, I think we run some risk that this very 
tough job won't get done.
    So I would applaud any efforts by the committee to continue 
to review what he is doing and what he has to work with in 
order to get it done. I know he will put a personal effort into 
it. Will he get the support that he needs from everyone?
    With regard to the New York City thing, there is not much 
that I really can add since I am not currently involved in any 
reviews that relate to that. And it is certainly not something 
that Markle looked at.
    I just would say that in the case of information sharing, 
the principal concern is to make sure that the people who have 
responsibility for taking action, in this case New York City, 
have all the information. I have no way of judging whether or 
not they had all the information or not, but the whole purpose 
of this effort to develop the information sharing environment 
is to make sure they know whether or not they got all the 
information and that there is an audit, if you will, of the 
process that gets that information to them.
    Clearly, your question on the hearings with regard to the 
trail of information are well outside of my responsibilities in 
the Markle Foundation or the Markle's current focus, so I won't 
make any comment on that.
    Ms. Jackson-Lee. Thank you.
    I thank Mr. Chairman. I will just self-testify and would 
think that both Mr. Crowell and Mr. Hamilton, as good 
Americans, would want us to find out the truth. And so any 
appropriate hearings that would help us do so in this whole 
chain of intelligence sharing as well as the allegations that 
surround us might be helpful in this committee, so I hope maybe 
we will look into that.
    And I yield back, and I thank the chairman and the ranking 
member.
    Mr. Simmons. Thank you for your comments on the issue of 
sharing information. Again, we have had some substantial 
inquiries into that issue, and I think it is fair to say that 
sometimes two groups of people can have the same information 
but draw different conclusions. And in particular, sometimes a 
trained intelligence analyst will be able to make an assessment 
based on more information that might place the source of 
information in question, whereas a non-trained individual might 
interpret more information as being a better and better source, 
if that makes sense. And that is why two groups looking at the 
same information can draw divergent conclusions.
    And so the information sharing system has to be 
sufficiently sophisticated that it takes into account the 
various backgrounds of the people involved.
    That being said, if our witnesses could bear with us for 
just a few more minutes, we might do a second round, if that is 
agreeable. I don't know what your time constraints are. Is that 
agreeable? Thank you very much.
    Asking my questions, Mr. Hamilton, a few years ago, in the 
eighties, we had a lot of excitement here on Capitol Hill 
focused around the Boland amendment and something called Iran-
Contra. I happened to be on the Senate side at the time in a 
staff position. I believe you were actively involved in 
oversight on the House side. And what we discovered in that 
situation was that there was a culture of secrecy that even 
extended from the intelligence community to the oversight 
agencies of Congress.
    Fast forward 20 years into the post-9/11 situation. That 
culture of secrecy has broken down somewhat. Information 
sharing is a buzzword on everybody's lips. But, as you have 
said, it is still a question of changing the culture.
    And how optimistic are you that we can actually change this 
culture or do we in fact need to add additional sources of 
information to the equation, namely open sources of 
intelligence, which are not as highly protected by the secrecy 
system and the secret bureaucracies and which lend themselves 
to sharing?
    Mr. Hamilton. Mr. Chairman, I am glad you didn't press me 
on Iran-Contra. That is too far back for me to remember very 
well.
    Mr. Simmons. I won't press you on anything. I just want 
your opinion.
    Mr. Hamilton. Well, I think?
    Mr. Simmons. You have been pressed enough today.
    Mr. Hamilton. Yes. I think you have got it very well 
analyzed, and no one can say at this point in time whether you 
are going to be able to break down that culture.
    I think the important thing to recognize is that the need 
to know principle, which, as you know from your background, is 
sacrosanct in the intelligence community, or has been for many 
years, probably served us very well for many years and was kind 
of the abiding principle during the Cold War period.
    But as you suggest in your question, times have changed an 
awful lot now, and that principle must not be relinquished but 
it has to be balanced against the principle of need to share so 
that you have both principles operating. Sometimes need to know 
is going to prevail, sometimes need to share.
    I think Mr. Crowell put it very well in his testimony when 
he identified the risk of failing to share. The concentration 
has always been on the risk of elite or the risk of information 
getting to the wrong person. That is a real risk. You don't 
want to deny that. But what we found, I think, over and over 
again was that the risk is greater in terrorism of failing to 
share information.
    Look, the govern develops, as you well know, millions of 
bytes of data every minute, all kinds of languages, and we 
collect mountains of data, which 99.999 percent of it is 
irrelevant. The task is to pick out those nuggets and to put 
them together to analyze, collect them and you don't get 
intelligence information that says, ``We are going to hit the 
World Trade Towers at 9 o'clock on Tuesday morning.'' You get 
all kinds of hints, and so putting that all together is 
difficult. Information sharing is critical.
    I am reasonably optimistic that if you give us enough time, 
we can put it together.
    And your final comment about open sources is critically 
important. Here, again, the intelligence community, as you may 
know better than the rest of us, has had a kind of disdain for 
open sources.
    If you look back on 9/11 and you trace what happened in the 
World Trade Towers and the embassy bombings and the USS Cole 
and the Fatwas from Osama bin Laden, everything was public--
everything. We all knew it, we just didn't get it. And so open 
sources are just as valuable as the secret sources, I believe, 
and I like your emphasis on adding information from open 
sources. I think it is critically important.
    Mr. Simmons. Thank you.
    Mr. Crowell, you work for the National Security Agency, or 
NSA, which at one point was referred to as NSA, ``No Such 
Agency.'' Twenty years ago when James Bamford did his book, 
``The Puzzle Palace,'' Director Lincoln Faurer tried to prevent 
publication because it was the first book ever written on, ``No 
Such Agency.'' So this is an organization with quite a 
reputation for secrecy, even the cables dating back to the Gulf 
of Tonkin incident have only just recently been disclosed.
    How can ``No Such Agency'' involve itself in information 
sharing in any useful way?
    Mr. Crowell. Well, I will go back to the earlier comments I 
made about leadership and its importance in all of this, and I 
think that if you examine some of the records of the past, you 
will see that information has willingly been surrendered by 
agencies like NSA and others as a contribution to history. I 
cite, for example, the release of the VENONA papers in 1995.
    During my tenure as deputy director, 25 million records 
were declassified and sent to the archives for use by the 
American public and by scholars who would study what really 
happened and return all of that investment to the American 
people.
    So it can be done. It is a matter of culture, not just of 
secrecy but it is a matter of having a commitment to history 
and to the importance of information and understanding that 
history.
    You know, during the Cold War, the need to know principle 
worked primarily because we had a very focused enemy, and we in 
fact did know who needed to know. I mean, I knew by name the 
individuals who were responsible for Soviet long-range air and 
the military officers who were going to respond to any of those 
threats and attacks. And I talked to them on a regular basis.
    This is a different world. It is no longer one in which I 
would be able to personally divine who needs to know about an 
arrest of Mohamed Atta on a Virginia roadway. I mean, it is 
just a different kind of situation.
    You talked about analysis and how people can come to 
different conclusions. I used to tell my young analysts that 
any two pieces of information would not give you any 
conclusion. As a matter of fact, I can draw an infinite number 
of circles through two points on a board. But with three, I 
begin now to define something that I can say with certainty but 
maybe one of those thoughts is misplaced, and so the more 
information I get, the more important it is.
    I believe that we are missing a point about terrorism as it 
relates to how we go after these targets. Now, I am talking 
well beyond my Markle experience. You are drawing upon my other 
experience. Terrorism has a process. That process includes 
target selection, planning, recruitment, training and then 
execution or command control.
    The earlier we can get into that process, the most chance 
we have of preventing terrorism. And I, for one, do not want to 
have a system that is just going to forensically document what 
they did to us. I would prefer to put our efforts into this 
whole plethora of processes that they are going to be involved 
in. And that is why members of the Markle Task Force began 
focusing on information sharing very, very early in our process 
of deliberation on what needed to be done to make things 
better.
    So the experience of the people in Markle who have served 
previous presidents and previous administrations in 
intelligence positions, in law enforcement positions that led 
us to believe that this new world is not about need to know, it 
is about sharing information that allows us to know more and 
come to conclusions earlier in the game. Rather long answer but 
important question.
    Mr. Simmons. Very discrete.
    The chair recognizes the gentlelady from California.
    Ms. Lofgren. Thank you, Mr. Chairman. I think this has been 
a very helpful hearing and just a couple of further questions.
    Mr. Crowell, you mentioned in your initial testimony that 
there was an issue relative to involving law enforcement so 
long as Mr. Russack reporting to the DNI. Do you have a 
proposed solution to that?
    Mr. Crowell. Well, there are two possible paths that you 
can go down. One is that you accept the fact that he is now in 
the DNI's Office and the president and those involved in the 
cabinet in other departments come to some agreement about how 
they are going to cooperate at a high level with the DNI in 
meeting the needs across the entire government.
    The other possibility, of course, is to either reassign him 
or dual hat him so that he has a reporting chain that gets him 
closer to these other organizations that must be supported, 
specifically the Department of Homeland Security and the law 
enforcement activities of Justice and FBI.
    Mr. Hamilton. Ms. Lofgren, if I may interject, I think this 
problem of information sharing with state and local authorities 
is a formidable problem. I know you have been in touch with 
your state and local officials and they really complain a lot.
    Ms. Lofgren. Yes, they do.
    Mr. Hamilton. And it is a question of building a 
relationship and building confidence. And it is a two-way 
relationship. I mean, the DHS and the DNI and all the rest of 
them have to pay attention to these local officials and the 
information they are gathering with regard to terrorism. But 
they also have to impart the information. These relationships 
cannot be quickly developed. They have to be developed over 
time. Confidence is the key, building the confidence in those 
relationships.
    And, of course, it is a very formidable problem for the 
federal authorities because they are dealing with so many 
municipalities and states across the country. It cannot be 
expected to be done quickly.
    Ms. Lofgren. And the level of expertise varies widely among 
the groups.
    Mr. Hamilton. That is exactly right. There are some 
municipalities that have expertise that matches that federal 
government and maybe even exceeds it in areas, and there are 
others that are very rudimentary.
    Ms. Lofgren. I wonder, Mr. Crowell, you mentioned--or maybe 
you didn't--the Markle Foundation, in any case, suggests, I 
believe, in the letter to the president that Mr. Russack should 
chair both the Information Sharing Council and the Information 
Sharing Policy Coordinating Committee. Is that because there is 
a lack of coordination between the two bodies? Why is that 
suggestion being made?
    Mr. Crowell. I am not really an expert on how those two 
organizations function today, and they are just standing up, 
but I think it is because the Policy Coordinating Committee in 
fact is able to set guidelines and policies across the entire 
federal structure, and it is not just a coordinating body.
    Ms. Lofgren. I see.
    A final question for Mr. Hamilton. I have followed for 
several years now the National Infrastructure Protection Plan, 
and it is late, we had a November 2 deadline for public 
comment, and I guess the final plan is supposed to be released 
in February of next year.
    Have you had an opportunity to review the draft plan? And 
if so, do you have any thoughts for us on it?
    Mr. Hamilton. I have not seen the draft plan but I do have 
some thoughts.
    Ms. Lofgren. All right.
    Mr. Hamilton. Look, it is a question of priorities. You 
have got thousands and thousands of targets out here, 85 
percent of them in the private sector. What do you decide to 
protect and what do you decide what not to protect? And the 
secretary in his confirmation hearing spoke about making hard 
choices. Well, that is exactly right.
    And I understand and you understand how difficult it is to 
make these choices, because if you choose to protect this 
chemical plant and not protect this one over here, and then 
this one over here is the one that is hit, you look pretty bad, 
you have made the wrong guess.
    Therefore, policymakers are very reluctant to make the hard 
choices on priorities. What I think you have to force the 
policy people to do is to make those choices as best they can. 
Otherwise, you are trying to protect everything and you will 
protect nothing very well. So I think the policymaker has an 
exceedingly tough job here, but it is a job that a policymaker 
must do. He has got to decide what infrastructure needs 
protecting.
    A chemical plant in southern Indiana is not going to cause 
the kind of damage if it is attacked than a chemical plant in 
the heart of New York City. You have got to make the choice.
    Ms. Lofgren. If I can, I realize my time is up, I 
understand what you are saying, and it is hard to disagree with 
that. I think, though, we are far from even that situation 
where we are mixing in supermarkets and a miniature golf 
course, in the case of my district, with infrastructure in 
telecommunications. It is simply never been included.
    Mr. Hamilton. You have to make these judgments on the basis 
of the best intelligence you have and on the risks that are 
involved, the vulnerabilities that are involved and the 
consequences that are involved.
    Ms. Lofgren. Well, I do want to state for the record, 
because I did ask, that there is nothing to base the miniature 
golf course inclusion. People should not be fearful of playing 
miniature golf in the 16th Congressional District.
    And with that, I would like to thank both of these 
witnesses for their excellent testimony. It has been very 
helpful.
    Mr. Simmons. I thank the ranking member for all of her 
assistance and participation.
    We have been joined again by the gentlelady from Texas. Did 
she have a final comment that she wished to make?
    Ms. Jackson-Lee. I wanted to pose the question regarding 
the October 20 report, Mr. Hamilton, from the Public Discourse 
Project. The project noted various impediments to the 
operations of the Privacy and Civil Liberties Oversight Board. 
Whenever I think of intelligence, I am always concerned about--
or the gathering of intelligence, privacy and civil liberties, 
and of course the board was a creature of the Intelligence 
Reform Act.
    I would like to get your sense of what the ongoing problems 
with the board that you may be aware of and what role should 
the board play with regard to information sharing issues we are 
examining today. Sharing suggests questions dealing with 
privacy and civil liberties, and I hope that we could track, 
deface and secure our civil liberties. And what should Congress 
be doing to address the shortcomings of the 9/11 Public 
Disclosure Project that has been identified with the board?
    Mr. Hamilton. I think it is very important to recognize 
that when you have an elaborate counterterrorism strategy, you 
are greatly expanding the role of government. You are spending 
a lot more money, you are hiring a lot more people, and 
government is becoming much more intrusive.
    Now, all of those things may be necessary in the current 
climate, and apparently most people think they are, because we 
are doing it. But what we said was that in this environment--
and I appreciate very much your question--you have to set up a 
Privacy and Civil Liberties Board that has power to look into 
these things across government, not just the FBI, not just the 
CIA but all across the government.
    The Congress obviously agreed with that. You put that into 
the law that was passed.
    Now, our concern at this point is that we don't see much 
urgency here. The president has named the members of the board. 
The nominees for the chair and the vice chair of the board have 
not yet been confirmed by the Senate. So far as I know, there 
is no funding available, no meetings have been held, no staff 
has been named, no work has been outlined, and no work has 
begun, no office has been established. So this is, 
incidentally, 10 months now after the establishment of the 
board by statute. So I think there is a real urgency here to 
get a board in place that is a robust board to protect privacy 
and civil liberties.
    Ms. Jackson-Lee. Let me thank you very much. That is a very 
forceful response.
    And, Mr. Crowell, let me acknowledge and thank you for your 
testimony. Didn't know if you wanted to comment on that. If you 
desire to do so, be happy to receive your comments.
    Mr. Crowell. Well, as I mentioned earlier, the Markle 
Foundation has always considered privacy to be a major part of 
our entire study. We believe very strongly that wit the right 
mechanisms, an oversight board, the right policies, guidelines 
and some technology to help audit and enforce those policies, 
that we do not have to compromise our right to privacy in order 
to attain a higher degree of security in this fight on 
terrorism.
    Ms. Jackson-Lee. Then let me thank both of you for your 
testimony.
    Let me thank the chairman and the ranking member, and may I 
pile on to both your plates possibly an oversight hearing 
regarding this board, why it hasn't been energized, if you 
will. We don't have confirmation rights or privileges, as the 
Senate does, but it would be important to ask the 
administration and others why we have not moved forward and 
whether or not we can help expedite--when I say, ``we,'' they 
can help expedite and encourage the confirmation of their 
appointees and as well establishing, as Mr. Hamilton said, an 
office, a mission, resources and staff I think might be a good 
parallel to the work we are doing on this committee.
    And with that, I thank them, and I yield back.
    Mr. Simmons. Thank you very much.
    Thank you, gentlemen, both for your long and very 
distinguished careers in service to the United States of 
America. Thank you for bringing the distilled wisdom of those 
careers as well as your recent activities to the table to 
benefit this subcommittee and this Congress. We thank you both 
very much.
    The hearing is now adjourned.
    [Whereupon, at 4:20 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
